<html>
<title> - WHERE THE JOBS ARE: PROMOTING TOURISM TO AMERICA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
            WHERE THE JOBS ARE: PROMOTING TOURISM TO AMERICA

=======================================================================



                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 16, 2012

                               __________

                           Serial No. 112-144



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
82-267                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texask                   HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey            Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 _____

           Subcommittee on Commerce, Manufacturing, and Trade

                       MARY BONO MACK, California
                                 Chairman
MARSHA BLACKBURN, Tennessee          G.K. BUTTERFIELD, North Carolina
  Vice Chairman                        Ranking Member
CLIFF STEARNS, Florida               CHARLES A. GONZALEZ, Texas
CHARLES F. BASS, New Hampshire       JIM MATHESON, Utah
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
LEONARD LANCE, New Jersey            EDOLPHUS TOWNS, New York
BILL CASSIDY, Louisiana              BOBBY L. RUSH, Illinois
BRETT GUTHRIE, Kentucky              JANICE D. SCHAKOWSKY, Illinois
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     HENRY A. WAXMAN, California (ex 
MIKE POMPEO, Kansas                      officio)
ADAM KINZINGER, Illinois
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Mary Bono Mack, a Representative in Congress from the State 
  of California, opening statement...............................     1
    Prepared statement...........................................     4
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................     7
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     8
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     9
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    10

                               Witnesses

Hon. Mazie K. Hirono, a Representative in Congress from the State 
  of Hawaii......................................................    11
    Prepared statement...........................................    14
Nicole Y. Lamb-Hale, Assistant Secretary for Manufacturing and 
  Services, International Trade Administration, Department of 
  Commerce.......................................................    17
    Prepared statement...........................................    20
    Answers to submitted questions...............................   101
James P. Evans, Chief Executive Officer, Corporation for Travel 
  Promotion, a.k.a. Brand USA....................................    39
    Prepared statement...........................................    42
    Answers from Caroline Beteta, Interim CEO, Brand USA, Inc., 
      to submitted questions.....................................   107
Geoff Freeman, Chief Operating Officer and Executive Vice 
  President, U.S. Travel Association.............................    49
    Prepared statement...........................................    52
    Answers to submitted questions...............................   114
Deborah Marriott Harrison, Senior Vice President, Government 
  Affairs, Marriott International, Inc...........................    60
    Prepared statement...........................................    62
    Answers to submitted questions...............................   122
Scott White, President and Chief Executive Officer, Greater Palm 
  Springs Convention and Visitors Bureau.........................    70
    Prepared statement...........................................    72
    Answers to submitted questions...............................   124
Patrick T. Long, Center for Sustainable Tourism, Division of 
  Research and Graduate Studies, East Carolina University........    76
    Prepared statement...........................................    78


            WHERE THE JOBS ARE: PROMOTING TOURISM TO AMERICA

                              ----------                              


                        WEDNESDAY, MAY 16, 2012

                  House of Representatives,
 Subcommittee on Commerce, Manufacturing and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:22 a.m., in 
room 2322, Rayburn House Office Building, Hon. Mary Bono Mack 
(chairwoman of the subcommittee) presiding.
    Members present: Representatives Bono Mack, Blackburn, 
Harper, Lance, Guthrie, Olson, Pompeo, Kinzinger, Butterfield, 
Gonzalez, Schakowsky, Sarbanes, and Waxman (ex officio).
    Staff present: Paige Anderson, Commerce, Manufacturing, and 
Trade Coordinator; Charlotte Baker, Press Secretary; Kirby 
Howard, Legislative Clerk; Brian McCullough, Senior 
Professional Staff Member, Commerce, Manufacturing, and Trade; 
Gib Mullan, Chief Counsel, Commerce, Manufacturing, and Trade; 
Andrew Powaleny, Deputy Press Secretary; Sam Spector, Counsel, 
Oversight; Shannon Weinberg, Counsel, Commerce, Manufacturing, 
and Trade; Michelle Ash, Democratic Chief Counsel, Commerce, 
Manufacturing, and Trade; Felipe Mendoza, Democratic Counsel; 
and Will Wallace, Democratic Policy Analyst.

 OPENING STATEMENT OF HON. MARY BONO MACK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Bono Mack. The subcommittee will now come to order. 
Good morning.
    When it comes to jobs and the economy, tourism is a common 
thread that weaves its way through all 50 States. The leisure 
and hospitality sector is now the fifth largest employer in the 
United States. As a subcommittee what can we do to promote 
growth in this critically important industry? I am reminded of 
something St. Augustine once said: The world is a book, and 
those who do not travel read only one page.
    The chair now recognizes herself for an opening statement.
    Rebounding from both a prolonged recession and the 
demoralizing 9/11 terrorist attacks on our Nation, tourism is 
once again a growth industry in America. Clearly, sustaining 
that growth as well as creating long-term stability in the 
tourism marketplace are keys to creating tens of thousands of 
new jobs across the United States. The President's Task Force 
on Travel and Competitiveness has set a lofty goal of 
attracting 100 million international visitors who spend $250 
billion annually by the end of 2021. Can we accomplish that 
goal? Well, as chairman of the subcommittee, here is my answer: 
Let us roll up our sleeves and get to work.
    Today tourism is among the top 3 employers in 29 States, 
and it is the number 1 industry in my district, which includes 
Palm Springs, Palm Desert, Coachella, and the entire Coachella 
Valley.
    Last year tourism nationwide generated $1.2 trillion in 
economic activity and supported nearly 8 million jobs. But here 
is what is really encouraging: In 2011, travel and tourism in 
America grew by 3-1/2 percent, more than twice the rate of 
growth for the entire economy. And there is more good news. The 
U.S. has set records for international visits in 4 of the last 
5 years. Today more money is spent on tourism in the U.S. than 
in any other country around the world.
    So how do we sustain that growth and create even more 
American jobs? One important way is to maximize the 
effectiveness of the Travel Promotion Act, which Congress 
approved in 2010 with bipartisan support. The act created the 
nonprofit Corporation for Travel Promotion, or CTP, with 
specific duties intended to increase international travel to 
the U.S. These duties include providing information to foreign 
travelers, such as U.S. entry requirements, fees and required 
documentation; identifying and correcting misperceptions 
regarding U.S. entry policies; maximizing economic and 
diplomatic benefits of travel to the U.S. through advertising, 
outreach and trade shows; ensuring that international travel 
benefits all States; and identifying strategies to promote 
travel to rural and urban areas equally; and finally, placing a 
priority on countries whose citizens are most likely to travel 
to the U.S.
    The CTP is funded through a transfer of fees collected from 
international travelers who access the Electronic System for 
Travel Authorization system for visitors under the Visa Waiver 
Program. The fee is currently set at $14, of which $4 is 
dedicated to maintaining the ESTA system, and the remaining $10 
is directed to the Treasury to be held for CTP.
    The Secretary of the Treasury may transfer up to $100 
million per year of these funds to the CTP, but first the CTP 
must raise matching funds through contributions of industry 
members. The Treasury Secretary's authority to collect these 
fees will sunset on September 30th of 2015. Should these fees 
be renewed in the future? Should they be increased? How 
effective has CTP been in promoting tourism? These are all 
critically important questions which we will have an 
opportunity to ask today.
    Among those testifying at this hearing is James Evans, 
chief executive officer for the Corporation for Travel 
Promotion, known as Brand USA. I am also anxious to hear the 
thoughts of our administration witness, the Honorable Nicole 
Lamb-Hale, who serves as Assistant Secretary for Manufacturing 
and Services at the International Trade Administration. The 
Department of Commerce through ITA is responsible for 
strengthening U.S. competitiveness, promoting trade and 
investment, and enforcing trade laws and agreements.
    Here is the challenge: If we are going to achieve the 
administration's tourism goals within the next decade, both ITA 
and CTP will have to step up their games in the years ahead. 
While the numbers of the visitors to the U.S. has grown 
impressively, increasing from 41 million in 2003 to 62.3 
million in 2011, how do we get to 100 million visitors by 2021? 
What could hold back that growth, and is there a plan B?
    As we found out all too painfully during the recent 
recession, the tourism industry tends to suffer when times are 
tough. We witnessed that up front and personal in the Greater 
Palm Springs area when many businesses were forced to close or 
lay off workers. But we can mute that negative economic impact 
in the future--but can we, excuse me, mute that negative 
economic impact in the future by substantially increasing 
international travel to the U.S.?
    As I said earlier, given the importance of tourism to the 
U.S. economy, and given the promise of creating tens of 
thousands of new American jobs, it is our job to make certain 
that we have a sound strategy and forward-looking policies in 
place which will positively promote the U.S. around the world, 
provide international travelers with a unique experience, and 
leave them with lasting treasured memories of their trip to the 
U.S. After all, there is no better travel promotion in the 
world than having a friend plug their visit to another friend.
    And on that note don't forget that the Palm Springs area is 
a fabulous place to visit anytime during the year, and the 
welcome sign is always out.
    [The prepared statement of Mrs. Bono Mack follows:]
    [GRAPHIC] [TIFF OMITTED] 82267.001
    
    [GRAPHIC] [TIFF OMITTED] 82267.002
    
    [GRAPHIC] [TIFF OMITTED] 82267.003
    
    Mrs. Bono Mack. With that, the gentleman from North 
Carolina, Mr. Butterfield, the ranking member of the 
Subcommittee on Commerce, Manufacturing and Trade, is now 
recognized for 5 minutes for his opening statement.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you, Madam Chair. I want to thank 
you for holding today's hearing on this very important topic of 
tourism and how we can work together to promote tourism here in 
our great country. And a special welcome to my friend, the 
gentlelady from Hawaii. Thank you very much for coming and 
spending this time with us today.
    The United States is second only to France in the number of 
annual international visitors it welcomes each year. With all 
due respect to that country in Europe that we call France, it 
needs to be our goal to move our country into the top spot, and 
we are moving in the right direction.
    In 1996, Congress directed the Department of Commerce to 
create what would become the Office of Travel and Tourism 
Industries in the International Trade Administration. The goal 
of that office is to enhance the international competitiveness 
of the U.S. Travel and tourism industry and increase its 
exports, thereby creating U.S. employment and economic growth.
    For the last 6 years, OTTI has conducted extensive research 
and has offered policy suggestions on ways to increase 
international travel. I am pleased to see Nicole Lamb-Hale, the 
Assistant Secretary for Manufacturing and Services, here today, 
and I look forward to hearing her testimony.
    What does tourism mean in real terms? It means jobs, and 
increased tax revenues, and cultural enrichment, among many 
other things. Boosting international tourism will create new 
jobs and spur economic activities that cannot be outsourced. It 
takes just 35 new international travelers to support 1 new U.S. 
job. Each international visitor to the U.S. will spend about 
$4,000 while here. Considering that we welcomed over 62 million 
international travelers to the United States last year alone, 
spending by international travelers can be a boon for local 
communities and small business around the country.
    Today in my home State of North Carolina, the State 
government is hosting North Carolina Tourism Day, where 
industry leaders and State government officials and everyday 
citizens heat with legislators and policymakers to learn ways 
to make the most of what our State has to offer. And so the 
great State of California has a lot to offer, and North 
Carolina on the east coast does as well.
    North Carolina visitors spend over $17 billion annually, 
and are responsible for supporting over 200,000 local jobs. I 
am particularly thankful that Dr. Pat Long from East Carolina 
University Center for Sustainable Tourism is here. I am 
interested to hear his views on how adopting sustainable 
tourism policies can reduce costs to industry, help maximize 
profits, and drive increases in international tourism.
    It is clear that every sector of the economy benefits from 
increases in tourism, and I stand ready to work with my 
colleagues and you, Madam Chairman, on legislative initiatives 
that will help promote international tourism and create jobs.
    I will also note that there is something we can do that 
doesn't cost a thing. It is something that we do very well in 
my home State, and it is called just being nice, and greeting 
people with a smile when they come through the door, being 
polite, saying thank you and you are welcome. If we can train 
the airlines and TSA and USCIS to employ the Golden Rule when 
interacting with international visitors, we can go a long way 
in breaking down barriers to international travel.
    Did you write that?
    With that said, I would like to thank our witnesses for 
being here today and yield the remainder of my time--I will do 
that later on, Ms. Schakowsky. We are going to hold back on 
that. We will yield back at this time. Thank you.
    Mrs. Bono Mack. Thank you, Mr. Butterfield.
    Ms. Schakowsky. Excuse me, did you----
    Mrs. Bono Mack. I thought he yielded back.
    Mr. Butterfield. I was told that if I didn't--let me 
reclaim my time if I can. I was told that if I had less than 2 
minutes, I would be yielding back. How much time did I have 
left? It was a minute 30.
    Would you like that time, Mr. Waxman?
    Mr. Waxman. No, I thought you would give----
    Mr. Butterfield. I was told less than 2 minutes to----
    Ms. Schakowsky. I will take it.
    Mr. Butterfield. With unanimous consent, I ask permission 
to yield.
    Mrs. Bono Mack. No objection. The gentlelady is recognized.
    Mr. Butterfield. Thank you.
    Ms. Schakowsky. Thank you.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    In general, tourism promotion is a bipartisan issue. We 
appreciate it. In Chicago we have the seventh most significant 
port of entry for international travelers, 1.2 million visitors 
starting their U.S. trips there. And we are going to discuss an 
important initiative of the Corporation for Travel Promotion, 
now called Brand USA, which was a bipartisan creation, but we 
can't pretend that both parties are committed to creating an 
environment that is welcoming to visitors.
    Our witnesses are going to highlight the need for a fast 
and efficient visa system--I know that there are many countries 
that we would like as more travelers. I was just in Brazil; 
they would love that. Poland, important for Chicago--and a 
streamlined customs process at ports of entry; and efficient 
transportation infrastructure that can handle millions of 
visitors a year.
    The majority's budget appropriations bills would not invest 
in any of these priorities. Instead they would make severe cuts 
in them. They are pushing for cuts to the State Department 
budget, infrastructure spending, airports, and even air traffic 
control. How will foreign visitors get here if there aren't 
sufficient air traffic controllers on the job to help their 
planes land safely?
    The travel and tourism sector is a perfect example how the 
Federal Government's contributions can build a solid base on 
which the private sector can thrive and together create 
thousands or millions of jobs, but cutting the vital public 
side of this coin, I believe, is misguided and harmful to our 
economy. I hope that we could all agree on things that in many 
more ways will promote tourism in our country, and I yield 
back. I yield back to Mr. Butterfield.
    Mr. Butterfield. Thank you. I reclaim my time and yield 
back the balance.
    Mrs. Bono Mack. Thank you.
    The chair now recognizes Mrs. Blackburn of Tennessee.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Madam Chairman.
    We are all talking about what we think makes our area of 
the country uniquely wonderful, and we do like to promote that. 
I think what concerns us is what we have seen come from this 
administration in nontraditional and nonsensical policies. And 
one of our greatest promoters of U.S. Tourism, Steve Wynn, had 
this to say, and I am quoting: ``This administration is the 
greatest wet blanket to business and progress in job creation 
in my lifetime,'' end quote.
    And here is an example. Just recently DOJ levied a new 
mandate on the hospitality industry requiring each pool and hot 
tub to come equipped with a pool lift. Each of these new lifts 
costs upwards of $6,000. This new mandate is leaving many hotel 
owners with the decision to either pave over their pools, which 
may make their hotel less competitive, or spend tens of 
thousands of dollars to comply, funds which could have been 
better spent on hiring new employees or competing to host 
tourists and conventions. Furthermore, the traveling public is 
facing an avalanche of travel barriers due to ever-rising gas 
prices and the aggressive overreach of the TSA at our Nation's 
airports.
    Last year the U.S. Travel Association asked air travelers 
if they were likely to take more trips next year by commercial 
airline after being made a way of the TSA's new screening 
initiatives. Only 49 percent said that they were very or 
somewhat likely to fly more.
    If we don't want to become the world's leading exporter of 
tourism, we need to stop shooting ourselves in the foot with 
steel-plated government policies that leave us less competitive 
and less secure. It is quite obvious that we need to scale back 
the Federal Government's heavy-handed overreach that is 
negatively impacting tourism in all of our districts. We need 
to be looking at ways to incentivize tourism and travel, and 
certainly in Tennessee we want you to come see the Great Smoky 
Mountains, the Country Music Hall of Fame, Graceland, Shiloh 
battlefield. We want you to come to the Grand Ole Opry, and 
then go to downtown Franklin, Leipers Fork and be sure to spend 
plenty of money.
    So we welcome you, and I yield back.
    Mrs. Bono Mack. I thank the gentlelady.
    And the chair recognizes Mr. Waxman for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Madam Chair, for holding 
this hearing. International tourism is a proven engine of 
economic growth in our country and a significant contributor to 
our national economic recovery.
    This shouldn't be a partisan issue, but we have almost had 
no hearings in the last year and a half where the Republicans 
have not turned it into a partisan issue. The comment about the 
regulations for swimming pools was to comply with the Americans 
with Disabilities Acts. I think Steve Wynn should care a lot 
about that, because he is a man who is suffering from 
disabilities, and he would probably benefit because of his lack 
of sight to have such a lift in the swimming pools. I don't 
think hotels are paving over their swimming pools because they 
have a regulation to protect the disabled. We even want 
disabled people to come to the United States, and we want to 
stay to hello to them, and welcome them here, and have them 
spend their money. It is just as good as anybody else's.
    According to the Department of Commerce, tourism spending 
surged 8 percent last year to over a trillion dollars. It 
supported 7.6 million jobs. This is one of our Nation's top 
exports, one of the few export industries guaranteed to create 
jobs that won't move offshore.
    Foreign visitors are putting Americans back to work and 
giving the world a window into our natural and cultural 
treasures. Luckily we have two people here from California that 
are going to advance our cause, because we are the gateway for 
tourism and hospitality in the Pacific area.
    The Chamber of Commerce estimates that every 1 percent 
increase in international visitors to Los Angeles infuses local 
business with a $43 million increase in direct spending and an 
estimated $88 million increase in economic impact. So the 
question is, How can we get more people to come?
    The President, we only have one at a time, this one, laid 
out a robust goal to attract 100 million international visitors 
annually within 10 years, a goal that I think both parties 
ought to support. The National Travel and Tourism Strategy 
unveiled last week is a blueprint to make it achievable with 
concerted coordination between government and industry.
    Some of the opportunities to attract more foreign visitors 
can be found in the Visa Waiver Program, which enables visitors 
from eligible countries to tour the United States for up to 90 
days without a visa. After South Korea became eligible for this 
program in 2008, the number of Korean visitors to the United 
States increased 30 percent, an estimate to indicate that the 
number could increase by another 55 percent by 2016. Other 
solutions will require target improvements to speed the 
resolution of visa backlogs in countries not eligible for the 
Visa Waiver Program.
    Well, I would be remiss if I didn't talk about why tourists 
come to my district. In Beverly Hills we have Rodeo Drive; in 
Hollywood the Grauman Chinese Theater and the Hollywood Walk of 
Fame, the beaches of Santa Monica and all the way down the 
coast. We have lesser known, but wonderful tourism 
opportunities. One example is the Conejo Valley, where 
internationally renowned tourists--Tour de France teams have 
been training along the world-class hiking/biking trails of 
Santa Monica Mountains National Recreation Centers.
    We have a lot of wonderful things to see, and there are 
times during the year when Palm Springs gets a little warm, so 
while they spend maybe a little less time in Palm Springs, they 
can come to the rest of California. But go to Palm Springs, as 
well, because we just have so much for people to see in the 
State of California. And I think that we ought to approach this 
on a bipartisan way to encourage tourism and support the 
efforts of the President, who is trying to do the same thing.
    I welcome our distinguished witness. She certainly has a 
place with a lot to offer for tourists. I wish I could find 
time to get back to Hawaii, but I spend all my time in 
California, so I am not deprived of wonderful tourist 
attractions.
    I yield back the balance of my time.
    Mrs. Bono Mack. I thank the gentleman from Beverly Hills, 
and I, again, welcome him any time to Palm Springs.
    But I do at this time turn our attention to our first 
panelists, and we welcome Representative Hirono of Hawaii to 
our committee, certainly somebody who understands this issue. 
And to reiterate to Mr. Waxman, all of us are very interested 
in bolstering tourism and doing what we can actually to help 
the President be successful in this goal.
    So welcome, Ms. Hirono. We are anxious to hear from you. We 
will recognize you for 5 minutes at this point.
    Just to remind Members, we do not plan on questioning our 
colleague, so after she gives us her statement, she will be 
free to go back to her busy day, and we will move on to the 
second panel.
    Ms. Hirono, you are recognized for 5 minutes.

  STATEMENT OF THE HON. MAZIE K. HIRONO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Ms. Hirono. Thank you very much, and aloha, everyone, 
chairman Bono Mack and Ranking Member Butterfield, and to all 
of the committee members.
    Mrs. Bono Mack. Excuse me. Make sure your microphone is on 
and pulled towards you.
    Ms. Hirono. Got it.
    Mrs. Bono Mack. Thank you.
    Ms. Hirono. Thank you. You would think I know this, but I 
am usually on the other side.
    Mahalo and aloha to all of you for giving me this 
opportunity to participate.
    Creating good jobs is a national priority, and one of the 
strongest job-creating sectors in America is the visitor 
industry. The travel and tourism industry is critically 
important, of course, to the State of Hawaii, and I would say 
that travel and industry is probably the number 1, 2, or 3 
economic driver in just about every State in the country, 
including, of course, Chairwoman Bono Mack's. And, in fact, 
doing a little bit of research in your State, practically 
900,000 people in California have jobs in this industry.
    Tourism in Hawaii is our biggest economic driver, 
accounting for 17.4 percent of the jobs in Hawaii. It also 
accounts for almost 20 percent of our economy. That is over 
145,000 jobs, 12.6 billion in 2011.
    Nationally tourism has been one of our Nation's biggest 
exports for years. In 2011, it supported 7.6 million jobs and 
generated 3.5 percent of or GDP. That is $1.2 trillion. The 
National Travel and Tourism Strategy released last week 
recognizes the industry's importance to our Nation's economy. 
It set a goal, as many of you have already articulated, 100 
million international visitors by 2021. I applaud Secretaries 
Bryson and Salazar and all of the task force members for their 
work on this plan, and I commend President Obama for 
recognizing and prioritizing travel and tourism as a way to 
create jobs. The goals set by the President will take our 
serious effort.
    Last year the U.S. welcomed 62 million visitors from 
abroad. That was a record number. So increasing that number to 
100 million in the next 9 years will be a challenge. It is a 
challenge that I know we can meet in a bipartisan way.
    In 2010, Congress passed the Travel Promotion Act, which 
created the Brand USA, which just recently launched its very 
first campaign to promote travel to our country. This year we 
passed legislation to improve our aviation systems and 
infrastructure. So we are making progress.
    I know that administration has worked to tackle visa 
processing backlogs in places like China. China is a key 
visitor market both for Hawaii and the United States, the rest 
of the U.S. Over 54 million Chinese traveled abroad in 2010. Do 
you know that fewer than 1 million of them came to our country, 
and Hawaii welcomed some 62,000?
    In September of 2011, Hawaii hosted the fifth annual China-
U.S. tourism leadership seminar--summit. At the summit Mr. 
Qiwei Shao, who is China's highest-ranking tourism official, 
said, quote, ``We hope the U.S. can bring more convenient visa 
procedures and we exchange views on this.'' He went on to say, 
``The goal in 2015 is for tourist flows between China and the 
U.S. to reach 5 million,'' end quote.
    We are totally missing the boat in this growing China 
market, but we can do something about it and do it quickly. 
Congress can act to cut red tape and streamline the visa 
process for visitors from China and other growing markets. That 
is why I introduced the bipartisan VISIT USA Act with 
Representative David Dreier. Our bill with make commonsense 
changes to our visa processes. These changes would expedite 
visa processing to increase visitors while preserving U.S. 
security. I want to emphasize that, while preserving U.S. 
security. They are also focused on high-growth markets like 
Brazil and India in addition to China.
    Briefly, some of the bill's key points are we would want to 
grant Chinese visitors 5-year rather than the current 1-year 
multiple-entry visas. We are also conducting interviews by 
secure video conferencing rather than requiring the Chinese to 
travel the great distances to the five permanent consulates in 
that country. And we would want to establish mobile satellite 
consulates in cities of more than 1 million; increasing or 
decreasing fees based on seasonal demand in our country; allow 
for expedited visa reviewing. These commonsense reforms among 
others included in the bill will help to implement our tourism 
strategy.
    This bill has a bipartisan companion in the Senate and has 
been endorsed by a broad range of groups from UNITE HERE to the 
U.S. Chamber of Commerce, to Americans for Tax Reform. And you 
are going to hear from the U.S. Travel Association, who will be 
also testifying today.
    So boosting our travel and tourism industry will help our 
economy create jobs. I am glad to have bipartisan cosponsors 
for our bill, including Representatives Dreier, Berkley, 
Blumenauer, Farr, Hanabusa and Hultgren. I hope all of you will 
sign onto this bill and consider pushing us, moving us forward 
quickly so that we do not continue to miss the vote--miss the 
boat, I should say--we are not going miss the vote, that is 
coming up soon--to miss the boat on attracting tourists who 
want to come here particularly from China.
    Just to give you the sense of what kind of impact this 
would have on Hawaii, we get maybe 62,000 visitors from China. 
With the kind of changes I have been talking about in this 
bill, it has been estimated we can welcome 300,000 Chinese 
visitors to Hawaii. They will spend $600 million, creating 
potential for 6,000 jobs in Hawaii.
    So I look forward to working with all of you as we go 
forward in a bipartisan way. Mahalo, aloha.
    [The prepared statement of Ms. Hirono follows:]
    [GRAPHIC] [TIFF OMITTED] 82267.004
    
    [GRAPHIC] [TIFF OMITTED] 82267.005
    
    [GRAPHIC] [TIFF OMITTED] 82267.006
    
    Mrs. Bono Mack. Thank you very much for your testimony. We 
appreciate your being here, and we will certainly take a very 
close look at joining you on your bill. I appreciate that.
    Thank you again, and at this point, rather than asking 
questions, we will see you later on the floor for the vote.
    And we would like to call Secretary Lamb-Hale to be seated 
for the second panel, take a quick 30-second change.
    Mrs. Bono Mack. Good morning. On our second panel we have 
the Honorable Nicole Lamb-Hale, Assistant Secretary for 
Manufacturing and Services, International Trade Administration 
at the U.S. Department of Commerce.
    Good morning, Madam Secretary. Thank you for coming back to 
be with us again today. You will now be recognized for your 5 
minutes. As you know, the lights will indicate when you need to 
begin wrapping up at the 1-minute mark.
    So please turn the microphone on, and bring it close to 
your mouth, and you are now recognized for 5 minutes.

   STATEMENT OF NICOLE Y. LAMB-HALE, ASSISTANT SECRETARY FOR 
MANUFACTURING AND SERVICES, INTERNATIONAL TRADE ADMINISTRATION, 
                     DEPARTMENT OF COMMERCE

    Ms. Lamb-Hale. Thank you. It is a pleasure to be back. Good 
morning, Chair Bono Mack, Ranking Member Butterfield, and the 
members of this subcommittee. Thank you for the opportunity to 
speak to you today on the National Travel and Tourism Strategy.
    The Obama administration and the Department of Commerce 
clearly recognize travel and tourism's importance to the 
economy. This industry supports job creation, accounting for 
$1.2 trillion in economic activity, and supporting 7.6 million 
jobs in all States and territories. In 2011, 62 million 
international visitors came to the United States and spent $153 
billion. These expenditures supported over 1 million jobs.
    The United States is highly competitive in the 
international travel and tourism marketplace. We lead the world 
in revenues derived from international travelers. However, the 
world travel market is changing rapidly. Competition has 
increased. From 2000 to 2010, the U.S. share of spending by 
international travelers fell from 17 percent to 11 percent, a 
more than 30 percent decrease in our share of the global 
market.
    Like the United States, other traditional tourism 
destinations lost share during this same period, while Asian 
and other emerging destinations dramatically increased their 
market share. Many of our competitors recognize global travel 
and tourism growth as an opportunity for increased trade and 
job creation.
    Given this new competitive dynamic, the United States must 
harness the potential of travel and tourism to grow our 
economy. To ensure we reach this potential, President Obama 
issued an Executive Order earlier this year that established a 
Task Force on Travel and Competitiveness. The task force 
developed recommendations to promote domestic and international 
travel to and within our country with the goal of increasing 
the U.S. share of worldwide travel.
    The task force, consisting of Federal agencies whose work 
impacts the sector, developed the United States National Travel 
and Tourism Strategy. Industry, congressional Members and other 
stakeholders provided substantial input. Secretary of Commerce 
John Bryson and Secretary of the Interior Ken Salazar cochaired 
the task force. They submitted the strategy to the President 
and released it to the industry and the public at a meeting of 
the Congressional Travel and Tourism Caucus just last week.
    The goal is simple, yet bold: Increase American jobs by 
attracting 100 million international visitors, who we estimate 
will spend $250 billion annually by the end of 2021. To 
accomplish this we will promote the United States as never 
before. This means communicating to the world that we welcome 
visitors, and providing information about the ease of travel to 
and within the United States. It means coordinating with the 
marketing campaign of Brand USA, the nonprofit private 
corporation established by the Travel Promotion Act of 2009. 
And it means partnering with industry as well as State, local, 
tribal and territorial governments to build campaigns around 
activities and iconic places, from the Sequoia National Forest 
to the San Antonio River Walk to the Outer Banks.
    While keeping our Nation's security as the primary focus, 
the Departments of State and Homeland Security will streamline 
these applications and entry for legitimate travelers into the 
country. They will do this through improvements in process, 
technology, staffing and infrastructure.
    The U.S. Government will continue to make strategic 
investments in the transportation infrastructure to enable 
safer and more efficient movement between destinations 
throughout the country. This means supporting the program to 
upgrade our national Air Traffic Control System and working to 
promote improvements to our Nation's highways. The 
administration will strive to provide world-class visitor 
experiences to inspire repeat visits. This strategy also 
proposes efforts to help small travel and tourism businesses, 
including expanding access to capital and helping small 
businesses gain the confidence to withstand demand volatility.
    The Tourism Policy Council, the Federal interagency council 
chaired by Secretary Bryson, will coordinate Federal policies 
and programs to implement the strategy. Building on our 
existing Office of Travel and Tourism Industries, we will 
create a national travel and tourism office at the Commerce 
Department to serve as a central driving force within the 
government, and to provide the day-to-day support needed to 
implement the national strategy.
    We will also work with the travel and tourism industry to 
collect and analyze data to support smart decision-making in 
the public and private sectors. We will also develop metrics to 
measure our progress and analyze results to improve 
performance.
    It is not just government agencies, of course, that promote 
increased travel and tourism. We are working closely with our 
private-sector partners as well. A key partner is Brand USA, 
which launched its U.S. Tourism promotion program last month. 
Commerce has committed to working with Brand USA to make its 
campaign successful.
    In closing, the implementation of the national strategy and 
our work with private-sector partners will be crucial in 
realizing travel and tourism's potential to create jobs over 
the next decade. I look forward to continuing to work with 
Congress to meet the goals set out for us in the Travel 
Promotion Act and to ensure that the unique public-private 
partnership it creates delivers on the full promise of this 
vital industry as a job-creation engine.
    Thank you for the opportunity to testify before you today, 
and I look forward to any questions you may have.
    Mrs. Bono Mack. Thank you very much, Madam Secretary.
    [The prepared statement of Ms. Lamb-Hale follows:]
    [GRAPHIC] [TIFF OMITTED] 82267.007
    
    [GRAPHIC] [TIFF OMITTED] 82267.008
    
    [GRAPHIC] [TIFF OMITTED] 82267.009
    
    [GRAPHIC] [TIFF OMITTED] 82267.010
    
    [GRAPHIC] [TIFF OMITTED] 82267.011
    
    [GRAPHIC] [TIFF OMITTED] 82267.012
    
    [GRAPHIC] [TIFF OMITTED] 82267.013
    
    Mrs. Bono Mack. You can clearly see from our opening 
statements that the members of this subcommittee have great 
pride in their districts. Whether it is Palm Springs, or the 
beautiful North Carolina, or the fabulous Chicago, Beverly 
Hills, Tennessee, there is a lot of great pride, and we are all 
very, very proud of our districts.
    It is not too often we get to speak about our national 
parks in this committee, and I am happy to say that I represent 
part of Joshua Tree National Park, and I am very honored to do 
that.
    So one of questions that I have is how do the offices 
within Commerce market U.S. destinations? And do you pick 
specific attractions or regions? Are there winners and losers?
    Ms. Lamb-Hale. There are certainly not winners and losers, 
Madam Chair. We are working very hard, under the strategy and 
under the auspices of the Tourism Policy Council, to ensure 
that the spirit of the Travel Promotion Act, which focuses on 
lifting all the boats, all of our States, opportunities in 
travel and tourism. So we do use data and research to figure 
out the best places to promote the United States. We are 
working very closely with Brand USA and their strategy to do 
so, and we are making sure that we market and promote world 
destinations as well as our urban centers. The idea is to 
promote the entire United States and to not choose one State 
over another.
    Mrs. Bono Mack. Thank you.
    You have said that we need to partner with State and local 
governments to build these campaigns around activities and 
iconic places. Who will choose in which projects to invest what 
criteria should be used? For example, half of my district was 
asking me a question the other day when I was out there about 
how do we promote tourism, but they have no infrastructure yet 
in place at all. Are they going to be disadvantaged compared to 
the other half of my district, which is very focused and has a 
great infrastructure in place currently to promote tourism? How 
will you be picking and choosing there?
    Ms. Lamb-Hale. Well, we won't be picking and choosing. What 
we will be doing is working very hard with all the States that 
are interested in helping to develop strategies to promote 
their particular destinations. We will be working very closely 
with Brand USA in the effort to ensure that we are targeting 
the right foreign markets to bring visitors, international 
visitors, into the country and to really build upon the fact 
that we have great urban centers, but, of course, within a 
range, a very short range, of distance there are rural 
destinations that are very important and that can be meaningful 
for the memories that you talked about.
    And so I think that as we work together through the 
interagency process, and with our State and local partners, and 
the private sector, we will be able to lift all the boats. 
There won't be a picking of winners and losers as it relates to 
our States.
    Mrs. Bono Mack. Thank you.
    You also testified that the administration will focus on 
fostering a skilled hospitality industry. Can you describe the 
administration's vision on this point, and where is the 
industry currently deficient?
    Ms. Lamb-Hale. Well, I wouldn't say that the industry is 
deficient. I think that there are opportunities for to us work 
together with the private sector to do the kinds of things that 
will create a world-class customer service and business 
experience for the country. So that includes helping to train 
small businesses, which comprise the largest percentage of our 
travel and tourism businesses in the U.S., on strategies and 
tactics to help to improve the visitor experience.
    I think has we partner with our private sector partners and 
with our Travel and Tourism Advisory Board, for instance, we 
can put together training programs to help small businesses to 
be successful and welcoming our visitors. We can certainly 
focus, and I know that DHS has done this, on making sure that 
the people on the front line at our ports of entry are trained 
to be, as Congressman Butterfield said, to say thank you, and 
you are welcome, and be welcoming to travelers.
    So I think that, again, as we pull together in the 
interagency and we work with our private partners, we can 
ensure that the customer experience and the visitor experience 
within the U.S. is the best that it can be so that we can be 
competitive.
    Mrs. Bono Mack. Thank you.
    And is the Commerce Department concerned solely with the 
total number of international visitors, or does it also have 
goals for boosting tourism at the State level, within the--you 
know, yes.
    Ms. Lamb-Hale. We are working very closely with the 
Department of Interior. We are focused on encouraging our U.S. 
citizens to explore all that the U.S. has to offer. At the 
Commerce Department, in particular at the International Trade 
Administration, we are very focused on international visitation 
and working with Brand USA in that regard. But as part of the 
Tourism Policy Council, which includes the Departments of 
Interior and other departments that touch this industry, we are 
really looking at ensuring that when U.S. citizens travel, that 
they consider staying home and looking at all that the U.S. has 
to offer.
    Mrs. Bono Mack. Thank you very much. I yield back my final 
10 seconds and recognize Mr. Butterfield for 5 minutes for 
questioning.
    Mr. Butterfield. Let me thank the chairman.
    The data shows that five U.S. States, I believe it is, New 
York, Florida, California, Nevada and Hawaii, all together 
account for some 93 percent of all overseas visitor arrivals, 
and that is good. But I am concerned that the remaining States, 
the territories and the District of Columbia combined receive 
such a very small portion of the total. Clearly the authors of 
the Travel Promotion Act felt the same way, as the statute 
explicitly directs Corporation for Travel Promotion to, quote, 
``ensure that international travel benefits all States and the 
District of Columbia, and to identify opportunities and 
strategies to promote tourism to rural and urban areas equally, 
including the areas not traditionally visited by international 
travelers,'' end of quote.
    One of your main jobs as the primary department overseeing 
this act is to carry out that duty. How do we help those States 
that do not attract large numbers of international visitors? Do 
you believe a unified national marketing strategy like Brand 
USA, and you made reference to that, would give a particular 
boost to these States, and if so, why?
    Ms. Lamb-Hale. Thank you for your question.
    The Travel Promotion Act, as you did state, does ensure 
that as we look at promoting the United States. That we not 
just promote the urban areas, but we also look at promoting 
rural America. We are working very closely with Brand USA and 
with our private-sector partners to ensure that that happens. 
We are really--if you look at our strategy, we are very focused 
within existing resources on how we can make sure that as we 
promote the United States, these other opportunities to explore 
rural America and some of our smaller States are taken into 
account.
    Mr. Butterfield. But is it true that 93 percent of 
international travelers go to five States?
    Ms. Lamb-Hale. You know, I don't have that information. I 
can check on that and get back to you. But I would say that as 
we implement the Travel Promotion Act, and as we implement the 
strategy working with our private-sector partners, we are very 
cognizant of the beautiful and iconic destinations that exist 
around our country. And so our goal is not just to promote, you 
know, our urban centers, but to look at other opportunities to 
ensure that when visitors come, they can take into account and 
take into consideration all of the opportunities that the U.S. 
provides for travel and tourism.
    Mr. Butterfield. Are regional partnerships more important 
to these States that are relatively off the beaten path to 
international visitors?
    Ms. Lamb-Hale. I think that regional partnerships are very 
important, and we are working--if you look at our strategy, we 
are working at making sure that we include rural America in 
those discussions and in that approach.
    Mr. Butterfield. All right. They didn't cut on my clock, so 
I am not going to abuse my time. That is all right, that is all 
right. I am going to ask one last question, and then I will be 
done.
    In the year 2000, the U.S. share of international arrivals 
was 7.5 percent of the world's total. By 2011, the U.S. share 
was down to 6.6. Trade groups, executive departments and 
congressional committees have cited this decline as a 
motivating factor for a renewed Federal emphasis on 
international travel promotion.
    Ms. Lamb-Hale, one out of OTTI's main jobs--one of the main 
jobs is to provide statistical support on travel and tourism to 
the Department and to the various industries that make up 
travel and tourism. As we seek to achieve the National Travel 
and Tourism Strategy's goal of 100 million and $250 billion in 
international travel spending by 2021? How do you intend to 
measure this progress?
    Ms. Lamb-Hale. Well, we are certainly working very closely 
with the private sector to do that. We understand the 
importance of data and research to the travel and tourism 
industry, and we are looking for creative ways through public-
private partnerships to close any data gaps that there are so 
that we can make sure that we use public and private resources 
appropriately in the promotion of the U.S.
    Mr. Butterfield. Thank you. I yield back.
    Mrs. Bono Mack. Thank you, Mr. Butterfield.
    The chair recognizes Mr. Olson for 5 minutes.
    Mr. Olson. I thank the chair.
    And thank you, Secretary Lamb-Hale, for coming today. I 
greatly appreciate your time and not waste an opportunity to 
talk about the Lone Star State.
    Ms. Lamb-Hale. There you go.
    Mr. Olson. We have a great slogan in Texas about our 
tourism: Texas, it is like a whole other country.
    Ms. Lamb-Hale. Ah.
    Mr. Olson. That comes from our Governor's office. We have 
got things to be proud of. We have got great diversity. We have 
got the Piney Woods of east Texas, lots of hiking and lots of 
fishing up there. We have got the central Texas prairies, the 
lakes, the water sports that we talked about, get it all out 
there and doing some tubing down the rivers. We have got the 
hill country, more tubing down there; the River Walk in San 
Antonio, which I think you mentioned in your testimony; the Big 
Bend areas. It has got mountains, mountains in Texas. We have 
got one that is 8,751 feet, Mount Guadeloupe. We have got the 
Marfa lights out there, which some people think they are UFOs, 
other people don't think they are UFOs, but go and see for 
yourself. We have got the Panhandle Plains, ``limo skies,'' and 
the best steaks, like premium steakhouse there in Buffalo Gap, 
Texas. And finally, we have got, where I live, the Gulf Coast 
of Texas, which stretches from the border with Mexico to the 
border of Louisiana, beautiful beaches, lots of great fishing, 
and home of the Johnson Space Center.
    And so we have half the southern border with Mexico, and 
what I am concerned about is Latin America is the fastest-
growing market for our economy, at least in Texas. We have got 
robust cruise ship operation out of Galveston, Texas. In fact, 
I went on that cruise with my family Christmas before last, and 
we went down to Central America, the Caribbean and northern 
part of South America. Now, I can assure you that the people on 
that cruise--there were a lot--we have the blue passports, our 
passports, but many, many people on that cruise ship had 
different color passports, so they were on actual business 
coming to Galveston, Texas, to get on a cruise ship to go down 
to Latin America.
    And we got three major international airports. San Antonio 
airport, my colleague Mr. Gonzalez, that is his home airport; 
Dallas-Fort Worth; and we have got Bush Intercontinental, where 
I live; and maybe a fourth one. We have got a little debate 
going on right now in Houston about Hobby airport getting some 
international travel access down to Mexico, and the northern 
part of Central America, and northern part of South America.
    And so what I am concerned about is obviously we just have 
a tremendous opportunity in Texas to grow. I mean, it is just 
numbers for you. For example, the GDP of the Texas travel 
industry was $23.4 billion in 2010. That is only lower than the 
oil and gas segment and on par with agriculture. That is high 
cotton in Texas. You are competing with the oil and gas 
industry and the agriculture industry, the cattle ranch 
industry. You have got something going on there, 23.4 billion.
    What I am concerned about is that from 2000 to 2010, U.S. 
Share of spending by international travelers fell from 17 
percent to 11 percent, more than 30 percent decrease in our 
share of the global market. The good news is we have, you know, 
record $153 billion of U.S. Travel and international tourism, 
but I am concerned about the decline there.
    In your testimony you say that the decreased share of 
international travelers was a result of more competition. And I 
am concerned about 9/11 and how that has changed things, not 
just for the airline industry. We tend to focus on that. But 
also, as I mentioned, we have got people coming across, their 
cars, from Mexico into my home State that want to be tourists 
there, that they are having to go through changes down there on 
the border. We have got the cruise ships. They have to go 
through different procedures to get aboard the ship. That is 
all good. But I am just concerned, was industry seeing a 
decrease before the 9/11 terrorist attacks? I mean, like, what 
were the numbers between 2000 and 2001?
    Ms. Lamb-Hale. You know, I would have to get back to you on 
that. I don't have those numbers handy. But I can tell you that 
what--I can give you some sense of the competition and why it 
is that as a result of that we have implemented and are 
implementing the strategy.
    After 9/11, of course, because of security concerns, 
rightly so, we had to do some things to make sure that our 
public, the American public, was secure. And we are now doing 
that and promoting the United States.
    I think that the competition and increased competition is 
that there are other areas of the world to see. There is a 
growing middle class and emerging economies, and they have a 
lot of choices that they can make. So I think that the fact 
that we are coming together as a government and for the first 
time really actively promoting the U.S., I think that we will 
gain the competitive edge that we all want to create jobs.
    Mr. Olson. Yes, we need to do that, because I applaud the 
idea of welcoming 100 million visitors, international visitors, 
to our State. That is very important. But right now our States 
have one hand tied behind their back, because they are 
competing against other countries. I mean, my home State of 
Texas, we have this advertisement program. I know we go to 
other States. I have seen--back home I see my colleagues from 
Michigan here, you guys are doing a good job.
    Ms. Lamb-Hale. I am from Michigan, too----
    Mr. Olson. There you go. I see those guys on my TV come to 
Michigan, beautiful city, but we need help. I mean, how many 
jobs do you think would be impacted if we get this 100 million 
international tourists coming in? How many jobs we have right 
here in the United States, any idea?
    Ms. Lamb-Hale. Well, I can tell you what the statistics 
were for 2011, and we can do some math, get a calculator out 
and maybe extrapolate from that. But I can tell you that there 
were 1.1 million total jobs supported by international 
travelers in 2011. So if we can do the math--I went to law 
school for a reason. So I don't know that I can do it in my 
head right now, but there is a formula. I mean, we have a 
formula. That is how we derived the goal. There is a direct 
correlation between job creation and the exports that we 
receive through travel and tourism by international visitors.
    So I think that if we look at what happened in 2011, if the 
Federal Government comes together with the private sector, and 
we really make the push that the strategy suggests, I think 
that we are going to see an enormous impact on job creation.
    Mr. Olson. Thank you. And I am way over my time. Just 
again, Texas, it is like a whole other country.
    I yield back.
    Mrs. Bono Mack. I hesitate to recognize the next Texan for 
a Texas filibuster, but the gentleman from Texas is recognized 
for 5 minutes.
    Mr. Gonzalez. Thank you very much, Madam Chair. It is just 
that we have so much to brag about, and rightfully so.
    But quickly, thank you very much, Madam Secretary.
    Let me ask you. I want to turn to the international visitor 
for a lot of reasons. You told me that you want to promote, 
obviously, what is going on domestically, and I understand 
that. And with the recession we probably have more people in 
the United States staying within the United States and visiting 
San Antonio and other spots as opposed to those particularly 
five States that the ranking member had pointed out. Those 
figures come from the census--that is what I was checking a 
minute ago with my staff--and in essence basically stated there 
were, I think, five States. According to the U.S. Department of 
Commerce, five States, New York, Florida, California, Nevada 
and Hawaii, received 93.8 percent of visitors. That excludes 
visitors from Canada and Mexico.
    There are many, many variables that come into play as to 
whether they are going to go to any of the other vacation 
spots. Something that my colleague from Texas pointed out is it 
is going to be the availability of just air transportation, 
major airports. And if you are going try to get people going 
from New York or whatever to other locales maybe once they get 
here or whatever, you still need all sorts of direct routes to 
some of those cities like San Antonio. And I am sure some of my 
colleagues know exactly what I am talking about.
    And where I am going with this is that my understanding is 
that the administration, one of its goals is to coordinate the 
efforts across agencies and departments to accommodate all of 
those considerations so that we are working at truly what would 
be the optimum.
    You have already heard that we have security concerns. We 
have, of course, just the accommodation of air routes and such, 
all of that. What are we doing in order to get all the agencies 
and departments on the same page to accommodate and encourage 
international visitors?
    Ms. Lamb-Hale. Well, what we are doing is, first of all, 
developing the strategy. We developed the strategy that was an 
interagency process. It was a task force led by the Secretaries 
of Commerce and Interior. And all of these agencies that have 
equity in this space have pulled together to put together this 
strategy, and they are beginning to implement that strategy. 
And that is something that we really haven't done as well 
before.
    I mean, we do have the Tourism Policy Council that has been 
in place. We are rejuvenating that. We are making sure that 
senior-level officials participate very actively to ensure that 
there is coordination on the Federal level. Through the 
creation of National Travel and Tourism Office at the Commerce 
Department that I spoke about, that will really create a 
central focus and really ensure that the coordination of the 
strategy, the implementation of the strategy takes place.
    And, you know, I wanted to mention, too, the issue of the 
five States. You know, we have not promoted the United States 
like we are planning to do, like we are doing now with Brand 
USA. The people who are going to those States are going to 
those States without the additional push from Brand USA and 
from the coordination of the Federal agencies to really market 
the United States as a whole. And I think as we do that, all 
States will be able to benefit from international visitors 
coming because we are going to go tell the story.
    We haven't told the story effectively. Brand USA's 
marketing campaign is fabulous, and it really focuses on all 
that the country has to offer. I think that particularly 
working together with the Department of Interior, you will 
really see a boost in our promotion activities that will ensure 
that we have the increased international visitors that we all 
want to create jobs.
    Mr. Gonzalez. And I think that is part of the formula.
    The other thing is I am just asking you to take very 
seriously that one provision there and goal of coordinating 
between departments and agencies.
    Ms. Lamb-Hale. Yes.
    Mr. Gonzalez. There are some things you would be able to do 
that are beyond your control, the strength of the American 
dollar compared to another currency and such, making the United 
States an attractive place to come; security and such. But 
there is still a lot to be done.
    Ms. Lamb-Hale. Yes.
    Mr. Gonzalez. I have about a minute left, and quickly I 
want to make a distinction. When I read this, I thought it was 
just absolutely amazing. I don't know if you are making 
distinction--and we have people from the tourism industry--the 
distinction between someone who comes to truly visit, or 
someone that comes here, and, of course, they are going to eat 
at our restaurants, stay in our hotels, but they are here to 
purchase things. That, to me, is a really high-value tourist.
    So I am going to read you something from the Orange County 
Register of March 12, 2012: In fact, Brazilians are spending so 
much that flights with Brazil's top airline, TAM, originating 
in the United States have had to carry more fuel to accommodate 
the dramatically overweight baggage. New York. And I am sure we 
can talk about Miami and other places.
    Is there any distinction in making that kind of tourist--I 
call them really a customer of the United States, truly export 
in many ways--are you making any distinction to accommodate 
that kind of commerce with visitors to the United States?
    Ms. Lamb-Hale. Well, I think that there is no surprise that 
Brazil is among the top destinations that we are marketing to 
for the United States because of fact that statistics show that 
they do spend quite a bit of money. It is interesting as we 
look at the export opportunity, it is not--you know, it is 
paying for the plane ticket, and it is coming in and buying, 
you know, soda and clothing, et cetera.
    And so I think as we approach this strategically, and we 
use resources both public and private in the most efficient way 
possible, we will be looking at areas that make the most sense 
to market to initially.
    I know that Brand USA, and I am sure Jim Evans will tell 
you this, has a plan, a strategy, a rollout. And what you will 
see is that countries where we have visitors who are those 
high-value visitors that you described are going to be at the 
top of the list.
    Mr. Gonzalez. Thank you very much for your testimony.
    I yield back. Thank you for your indulgence.
    Mrs. Bono Mack. Thank the gentleman.
    The chair recognizes Mr. Pompeo for 5 minutes.
    Mr. Pompeo. Thank you, Madam Chairwoman.
    Unlike the other Members today, I am not going to 
shamelessly promote Kansas. I don't need to. If you have ever 
seen a Kansas sunset, if you have ever had a chance to go hunt 
and fish in western Kansas, or you have had a chance to visit 
Kansas City and the wonderful amenities there, you don't need a 
Member of Congress to sell you on it.
    You may not need Federal trade promotion either. And that 
is really--I want to follow up on what Mr. Gonzalez said. Tell 
me about the metrics. There are so many dynamics, fuel price, 
the dollar value. You talked about developing metrics. What are 
the metrics against what you will measure the resources that 
are being expended on this project?
    Ms. Lamb-Hale. Well, certainly we are--those are in 
development. We are working very hard to ensure that our 
research and our data support what we are doing, the monies 
that are being spent. I know that Brand USA has been working 
very closely with us to ensure that we can measure our success.
    We are very focused on public-private partnerships to help 
us to develop the metrics and to be able to measure our 
success, and so that is something that under the strategy we 
are developing, it is under way. You know, there are 
traditional metrics in terms of, as Mr. Gonzalez mentioned, you 
know, spending patterns and, you know, can you make a direct 
correlation between an advertising campaign in Japan and how 
much is spent by Japanese visitors in the U.S.
    Those are things we have to work through. I don't think 
that we have the formula down pat now, but it is a critical 
part of the strategy to conduct research and measure our 
results. And so that is something that the Tourism Policy 
Council will be working very closely on with our Travel and 
Tourism Advisory Board and with Brand USA to make sure that we 
can report to you successes in this regard.
    Mr. Pompeo. Great. I appreciate that. I think it is 
difficult. That is why I ask. I think it is hard to segregate 
out what is really driving it. I appreciate, too, that we have 
got lots of private money going to these folks who have an 
enormous self-interest in making it successful for their 
businesses and for their employees for job creation in America. 
I appreciate the way that this program has been developed.
    Really, one last comment, and then I will yield back my 
time. I listen to the groups of different folks who are 
involved in this, and whenever I hear ``interagency working 
group,'' I become frightened, because I often think that often 
means duplicative programs, confusion, incoherent policy 
objectives, overlap and waste. So I would just--we will keep 
following on this committee. I would urge you to do everything 
you can to make sure that we are not committing the same 
problems here--or having the same problems here that we have in 
so many other places in Federal Government today.
    Thank you very much for coming and joining us this morning.
    I yield back.
    Mrs. Bono Mack. I thank the gentleman.
    And the chair recognizes Mr. Harper for 5 minutes.
    Mr. Harper. Thank you for being here with us today, and we 
certainly hope that you will come visit us in Mississippi, 
where the food is always better. We can fry anything, just so 
you know. It is a great place.
    But we have many wonderful places to visit. We have the 
beautiful Natchez Trace Parkway that runs from Nashville, 
Tennessee, down to Natchez, Mississippi, on the Mississippi 
River. Lots of great history there. We also have the Dixie 
National Rodeo that is the largest rodeo east of the 
Mississippi River. And surprising to some is the International 
Ballet Competition is only held in one place in the United 
States, and that is in Jackson, Mississippi, every 4 years, a 
2-week Olympic-style event that is peopled with visitors from 
all over the world. And so we hope you will take a chance to 
come visit us sometime. And there are great things there. The 
Mississippi band of Choctaw Indians, their ad campaign is 
``Vegas with Sweet Tea.'' So many wonderful things there.
    And we appreciate what you do. And we know this, that 
tourism is important to every State. And it is affected in 
great ways, particularly on group travel, by gas prices at the 
pump. The high prices definitely have a big impact on planning 
those trips, from bus tours to other groups that come in. So we 
certainly hope that the administration will perhaps reconsider 
its position on Keystone XL pipeline and look at ways that we 
can affect that price at the pump directly, realizing that when 
gas was $1.84 a gallon average, it is a lot easier to get folks 
on board and to make trips. So that is a big impact.
    But what I want to do is ask you a couple of questions, and 
understand how did the administration set goals for the 
strategy that you have discussed? And is the primary goal to 
increase the number of international visitors to 100 million by 
2012?
    Ms. Lamb-Hale. It is by 2021.
    Mr. Harper. I am sorry, 2021. If I could read, I could 
figure that out.
    Ms. Lamb-Hale. OK.
    Mr. Harper. You know, 100 million is a nice goal, but how 
was that figure arrived at? That is a very ambitious goal, a 
good goal.
    Ms. Lamb-Hale. It is ambitious, and we really want a 
stretch goal. We don't want to set forth a goal that, you know, 
is too easy to reach, because we want to work together and 
really push to ensure that the job creation that we believe can 
occur as a result of this industry is as robust as possible.
    The Office of Travel and Tourism Industries in the 
Department of Commerce does an annual forecast of international 
travel, and that forecast shows that there is an increase of 
4.2 percent per year through 2016 just based upon factors that 
we look at in deriving that number. We believe that if we pull 
together the way that we plan to do under this strategy, and 
with the help of the private sector, we can push that to 5 
percent per year. So once you get that number, we get to 100 
million visitors, the math on the amount of money that is spent 
is just based upon historic spending patterns per visitor.
    Mr. Harper. Got you.
    Ms. Lamb-Hale. So even me as a lawyer can figure out how to 
do the math on that one.
    Mr. Harper. Lawyers are people, too.
    Ms. Lamb-Hale. We are people, too, we are. But certainly 
that was the baseline. It was based upon the survey that we do. 
And what we did was we really tried to push it so that--based 
upon all the efforts that we are making.
    Mr. Harper. How do you plan to coordinate your activities 
with Brand USA to make sure there is no duplication or that you 
are working together? And what do you see as the key 
contribution of the Department?
    Ms. Lamb-Hale. OK. Well, we will not duplicate the efforts 
of Brand USA. Brand USA is a private-sector entity. They will 
be putting together their plans and working very closely with 
their private-sector partners to ensure that all of the 
expertise that is available in industry can be brought to bear 
to promote the United States.
    The government will be focused on uniquely governmental 
items, creating the environment for travel and tourism 
businesses to thrive; ensuring that our borders, while 
protecting them, are welcoming to visitors; ensuring that the 
playing field is leveled in international fora as it relates 
to, you know, ensuring that any restrictions on trade and 
travel and tourism are eliminated. Only uniquely governmental 
functions will the U.S. Government focus on.
    Mr. Harper. Thank you for your time today.
    I yield back.
    Mrs. Bono Mack. Thank you, Mr. Harper.
    Mr. Guthrie, you are recognized for 5 minutes.
    Mr. Guthrie. Thank you. And I will promote Kentucky as we 
move forward. We had a pretty famous event just a few--well, I 
guess a couple Saturdays ago.
    First of all, on the visa you got into, a couple of things. 
I want to know Brazil has a reciprocal agreement, so whenever a 
Brazilian citizen is required to come here, it also requires to 
go there. And I had some friends get caught up in that. They 
had to fly to Washington, DC, to go through the Brazilian 
Embassy so they could get their visa to go to Brazil. And I am 
thinking if we got Brazilians living outside of Rio and Sao 
Paolo and Brasilia, it is a big country, if they wanted to come 
here to go to Disney World, they are going to have to fly to 
one of those. What an inconvenience it is, to kind of put it 
into perspective.
    And I want to say this, is that how is that going? Because 
I know that it has to be--we have to protect ourselves from 
people coming in, one, that want to do us harm, but, one, that 
want to come in illegally and stay. And I give an example.
    I have a young lady, or a friend, or actually almost like a 
sister who came to study at Western Kentucky University from 
Mexico as a graduate student and live with my parents. And so 
she goes home, marries, has kids, and wants to bring them to 
Disney World. And her husband--I have been to their business. 
As a matter of fact her biggest complaint--I know it is on TV; 
she will probably hear it--is that he will never leave his 
business unless they go on vacation, because he is always there 
working. And I have been there and seen it, and that is his--
second to her, his love. And they couldn't get a visa to come 
in and for some reason in that into Mexico City. And they have 
to go through a lot of cases. So it is not a complaint to them. 
But it just seemed to me to be a clear case of somebody who 
will come to the United States, take vacation, and go back, and 
it just seemed very difficult to get that visa. As a matter of 
fact, they went to Spain instead because they couldn't come 
here. And so it is the kind of business they could afford to go 
to Spain. That is the thing.
    And so where is that in the process? We have to protect 
ourselves, but we also--you will hear it from Disney folks in 
town here that it is difficult to get people to travel back and 
forth.
    And then also when you show up--I am so glad when I land 
here I have got the U.S. citizen line at the airport, because 
not only do you get a visa--I haven't flown internationally in 
a while, but last time I came in, it appeared to be hours of 
waits to get in, whereas we had the U.S. citizen line or 
permanent resident line to go through.
    So those things about just the difficulty of getting a visa 
to come here, and the difficulty of getting here once you get 
here.
    Ms. Lamb-Hale. Well, I certainly need to defer to my 
colleagues at the Department of State and Homeland Security on 
these topics, but I can tell you that the State Department is 
working very hard to streamline visa processing. They 
understand the issues around travel to our consulates around 
the world and how that may create some inconveniences. They are 
working hard to reduce wait times for qualified visitors.
    So they are aware of the issue, and they have made a lot of 
progress, and I am sure they would love to share that with you. 
We can get you some information on that.
    With respect to DHS, they recognize that we need to do 
better at our ports of entry. They have the model ports program 
that they have been working, and they have developed, through 
that program, best practices that they are implementing across 
the country, while still maintaining our security. I think 
there is a lot that they are doing to improve the 
infrastructure and the operations at our border crossings, and 
I think that you will begin to see a difference there.
    We have got a lot to do, and we have to protect our 
national security. That is a very important part of what they 
do. But they do recognize that there are some improvements that 
can be made.
    Mr. Guthrie. I absolutely think there should be no 
sacrifice to immigration policy or national security to 
streamline the process. But I can see if you come here once, 
and you go out, it is just easier to go somewhere else. And 
that is what I have heard. And with just a couple experiences. 
Of course, they are anecdotal, but they are experiences.
    One thing. There was a guy I met through a connection here 
from South Africa that came to Kentucky a couple weeks ago. And 
he said, boy, I never would have come here. He did the Bourbon 
Trail. We have calcium in our ground, so the grass is a natural 
supplement for strong bones, so our horses are stronger and 
better. Also, it is a pure filter for water running through 
limestone. This is limestone, so it filters, and iron falls 
out, so if you put it and heat it up and put corn in it, it 
does well. And the other thing is it also creates caves, 
because the limestone washes out. So in my district is Mammoth 
Cave. So he got to do those experiences. He says, wow, I never 
would have gotten out of DC, New York, California had I not had 
an opportunity to come here and made that connection that we 
had.
    I mean, what kind of strategy--I know that--I mean, quite 
frankly, there are a lot of places I haven't visited because I 
have gone to New York, Washington, California the same way, and 
I wanted to go to other places. What kind of things are you 
working on to get them out of the big--they are great cities, I 
love them, but how do we get them in the heartland?
    Ms. Lamb-Hale. Well, I think that really with the help of 
Brand USA, we will be marketing the entire United States. I 
think that people are going to those cities that you mentioned 
because they have heard of them, right? We haven't really, 
until now, through the strategy and with the partnership of 
Brand USA, really marketed the country. And I think as we do 
that, and we focus both on rural and urban areas, we will begin 
to see a difference there. I think that we really, through the 
efforts, the combined efforts, of our public-private 
partnership, we will be able to expose international visitors 
to all that the country has to offer.
    Mr. Guthrie. One of the world's great travelers, Queen 
Elizabeth II, loves coming to Kentucky. So that is my last 
promotion of our great Commonwealth. Thank you.
    Mrs. Bono Mack. I thank the gentleman.
    And I want to thank you again, Secretary Lamb-Hale, for 
joining us today for this important discussion on promoting 
tourism in America. It is always great to see you and to have 
you before our committee. I really look forward to working with 
you to make this a huge success for all of us. So thank you 
very much for your time, and I hope to see you again soon.
    Ms. Lamb-Hale. Thank you, Madam Chair.
    Mrs. Bono Mack. At this point we will take a 30-second 
recess as we seat our third panel. If those third panelists 
could please come to the table.
    All right. We are ready to resume today's hearing with our 
third panel. Again, each of our witnesses has prepared an 
opening statement, and that full statement will be placed into 
the record. You will each be given 5 minutes to summarize the 
statement in your remarks.
    Joining us on our panel are James Evans, chief executive 
officer of the Corporation for Travel Promotion, also known as 
Brand USA. Welcome.
    We have Geoff Freeman, chief operating officer and 
executive vice president of the U.S. Travel Association.
    We have Debbie Marriott Harrison, senior vice president for 
government affairs at Marriott International. Welcome.
    Scott White. A special welcome to one of my constituents. 
He is president and chief executive officer for the Greater 
Palm Springs Convention and Visitors Bureau. Welcome.
    And Patrick T. Long, Dr. Patrick T. Long, director for the 
Center for Sustainable Tourism, Division of Research and 
Graduate Studies at East Carolina University.
    Welcome to each of you. You will be given the 5 minutes. To 
help you keep track of time, please try to keep an eye on the 
light. When the yellow light illuminates, you have 1 minute to 
begin wrapping up your remarks.
    Please make sure you bring the microphone close to your 
mouth and turn it on. It is not just for us, but it is for the 
stenographer and anybody else who might be listening or 
watching.
    So with this, we are going to begin. Mr. Evans, you are 
recognized for 5 minutes.

    STATEMENTS OF JAMES P. EVANS, CHIEF EXECUTIVE OFFICER, 
   CORPORATION FOR TRAVEL PROMOTION, A.K.A. BRAND USA; GEOFF 
FREEMAN, CHIEF OPERATING OFFICER AND EXECUTIVE VICE PRESIDENT, 
U.S. TRAVEL ASSOCIATION; DEBORAH MARRIOTT HARRISON, SENIOR VICE 
 PRESIDENT, GOVERNMENT AFFAIRS, MARRIOTT INTERNATIONAL, INC.; 
  SCOTT WHITE, PRESIDENT AND CHIEF EXECUTIVE OFFICER, GREATER 
  PALM SPRINGS CONVENTION AND VISITORS BUREAU; AND PATRICK T. 
  LONG, DIRECTOR, CENTER FOR SUSTAINABLE TOURISM, DIVISION OF 
    RESEARCH AND GRADUATE STUDIES, EAST CAROLINA UNIVERSITY

                  STATEMENT OF JAMES P. EVANS

    Mr. Evans. Thank you, Madam Chairman, Ranking Member 
Butterfield, and members of the committee, for inviting me here 
today to discuss the ways in which Brand USA will help create 
jobs by increasing the number of overseas visitors to the 
United States.
    Brand USA was established by the Travel Promotion Act in 
2010 to spearhead the Nation's first global marketing effort to 
promote America as a premier travel destination and communicate 
U.S. entry and exit policies. Brand USA does not require a 
single penny of taxpayer money to operate. Rather, the 
organization is funded through a combination of private-sector 
contributions and fees paid by international travelers from 36 
visa waiver countries.
    Congress created this private-public partnership knowing 
that the U.S. had fallen behind in global competition for 
overseas travelers. During the last decade the United States' 
share of overseas arrivals stayed flat even as the global 
travel market grew by more than 60 million people annually. And 
what did this mean to our economy? According to the U.S. Travel 
Association, had the U.S. kept pace with travel growth, we 
would have welcomed 78 million more visitors and generated $606 
billion in spending. That is enough to support more than 
467,000 jobs, American jobs, annually.
    These overseas travelers are the most lucrative for the 
U.S. economy. On average they spend $4,300 when they visit the 
United States, and that doesn't include business deals done 
when travelers come to the United States to buy manufactured 
goods. And every 33 overseas travelers support 1 U.S. job.
    The challenge to recapturing our share is even greater as 
the global travel market has become increasingly competitive 
over the years. Until now the United States was the only 
industrialized country that did not actively market itself to 
promote international visitation. A 2011 McKinsey Global 
Institute report estimates that the tourism sector could add 
2.1- to 3.3 million jobs this decade. In order to reach that 
higher number, however, the report says that we need to 
increase the number of overseas visitors to our shores.
    Brand USA is committed to doing its part to reach the goal 
by developing a global marketing campaign on behalf of the 
United States, with a strategy designed to promote all facets 
of our great Nation. This month we launched our campaign in 
three markets, in the United Kingdom, in Canada, and Japan. Our 
decision to target these markets first was based entirely on 
where we believed, through research, our advertising campaign 
will achieve the greatest possible return on investment.
    The campaign reflects insights gained from surveying 
potential visitors to the United States, and what we found 
wasn't all that surprising, but was sometimes difficult to 
hear. Some felt we haven't been a very welcoming Nation in the 
past recent years. Others felt that there were newer, more 
exotic markets they were interested in visiting. And others 
felt they had seen all they needed to see of the United States.
    This research fed into our campaign message, inviting 
travelers worldwide to discover this land like never before. We 
are using television, digital advertising, signage, print ads, 
and a robust social media strategy to reach our potential 
visitors. And our Web site, DiscoverAmerica.com, features 
destinations large and small, iconic and less known, from all 
regions, both urban and rural.
    We are also working with the Departments of State, Homeland 
Security, Commerce, and Interior to better communicate our 
Nation's evolving security rules, to address misperceptions, 
and create a more welcoming environment to visitors.
    Once the program is fully activated, we will have a better 
idea of what to expect from a return-on-investment perspective, 
but our goal in this inaugural year is to have a 3-to-1 return 
on our marketing spend, and eventually, in 3 to 4 years, to 
achieve a 20-to-1 spend.
    I thank you for the opportunity to be here this morning to 
testify. We greatly appreciate the support of this committee as 
well as other Federal partners in the executive branch. We look 
forward to working with you to ensure that our success leads to 
the creation of much-needed American jobs. I thank you for your 
time. I look forward to answering any questions you may have.
    [The prepared statement of Mr. Evans follows:]
    [GRAPHIC] [TIFF OMITTED] 82267.014
    
    [GRAPHIC] [TIFF OMITTED] 82267.015
    
    [GRAPHIC] [TIFF OMITTED] 82267.016
    
    [GRAPHIC] [TIFF OMITTED] 82267.017
    
    [GRAPHIC] [TIFF OMITTED] 82267.018
    
    [GRAPHIC] [TIFF OMITTED] 82267.019
    
    [GRAPHIC] [TIFF OMITTED] 82267.020
    
    Mr. Evans. And, Madam Chair, I have a 2-minute video at 
some point in time if you would like to take a peek at it. If 
you have time.
    Mrs. Bono Mack. Go ahead. We are prepared when you are.
    Mr. Evans. Wonderful.
    [Video shown.]
    Mrs. Bono Mack. Thank you. Is that on your Web site?
    Mr. Evans. It is on our Web site. That again, just a 
reminder, is not an ad. Obviously, it is too long. But it is a 
promotional piece we use. But all the content in every ad we 
have comes from that video.
    Mrs. Bono Mack. Well, I thank you. It is well done. And I 
think we all will be singing ``Land of Dreams'' all day long.
    Mr. Butterfield. Was that a 1959 Cadillac I saw in that?
    Mr. Evans. It was a Cadillac, yes.
    Mr. Butterfield. 1959?
    Mr. Evans. Yes. It is not mine, I promise.
    Mrs. Bono Mack. All right. And Mr. Freeman, a tough act to 
follow, but you are recognized for 5 minutes.

                   STATEMENT OF GEOFF FREEMAN

    Mr. Freeman. You can't watch that video and not get excited 
about the new face that America is putting out there and the 
invitation that we are sending to travelers around the world.
    Thank you so much for hosting today's hearing. We greatly 
appreciate that as you talk about your various destinations, 
and all the opportunities that are there, your unique 
understanding that it is not just fun, it is also big business. 
It is an opportunity to drive your local economies. And that is 
why the travel industry wishes to partner with you to help 
create good American jobs, the good American jobs that we are 
all seeking right now to turn this economy around.
    The travel industry supported 14 million American jobs last 
year, but as Jim said, McKinsey estimates this industry could 
add an additional 3 million jobs over the next decade. To do 
that we have to work together to remove barriers to travel, and 
we are excited to work with you to do that on both the 
international front as well as the domestic front. And if you 
don't mind, I would like to walk through both of those sides 
and suggest some of the things that we need to address in order 
to welcome more travelers to our shores and encourage people to 
travel within the country.
    On the international front, travel is our number one 
export, generating $153 billion last year alone in spending. 
This is an element of our industry that we absolutely must 
promote. To do that we obviously need a secure and efficient 
visa system, our entry process must be welcoming, and our 
promotion must correct a global misperception that America is 
not as welcome as it might have been before. We see this as 
three links in the travel chain, all of which must work 
together, none of which being more important than the other.
    Let us begin with the visa process. Visa wait times for 
some time over the past decade have been a great barrier to 
travel to the United States, often exceeding, in some 
destinations around the world, more than 100 days just to 
receive an interview. We congratulate the State Department on 
making great strides in recent months in reducing those wait 
times in Brazil, in China, and elsewhere around the world.
    The question and the challenge for all of us right now is 
how we make sure that these changes, these improvements can be 
sustained over time. We have several recommendations that we 
look forward to working with you to ensure that we can maintain 
these visa successes.
    Number one, we encourage you to codify a 10-day visa wait 
time as a standard around the world. Two, we need to direct the 
State Department to tie visa personnel staffing levels to meet 
this standard. Number three, direct the State Department to 
pilot the use of secure videoconferencing technology in large 
countries like Brazil and China, where people don't have access 
to consulates. And finally, we need to look for opportunities 
to expand the Visa Waiver Program, which is included in 
bipartisan legislation that exists both here in the House and 
in the Senate.
    The second area that we have to address is obviously the 
entry experience. The entry process right now suffers from too 
few agents to meet the considerable demand that we have to come 
here. Several things that could help us address this issue 
include establishing a passenger wait time standard of no more 
than 20 minutes; extending the reach of current staffing 
resources and expanding the use of global entry; and finally, 
setting metrics to measure the customer service performance of 
CBP officers at our airports.
    The final thing, as Jim has focused on on the international 
front, is effective promotion. This committee led the way for 
TPA's passage. TPA's passage will drive billions in new 
spending and support tens of thousands of jobs in our country. 
We need your help in protecting and promoting the Travel 
Promotion Act as we move forward, and we will obviously have an 
opportunity at the end of its authorization to determine its 
effectiveness over that period of time.
    Switching over to the domestic side, we also have 
opportunities there. We certainly have opportunities to improve 
our air travel experience, where many travelers today are 
avoiding travel because of the hassles associated with that 
experience. We encourage you to take a hard look at TSA, which 
was mentioned earlier, and necessary reforms that need to take 
place there.
    We also need to look, though, at another potential barrier, 
and that is language or policy from Washington that could 
discourage travel. The recent GSA scandal, where individuals 
acting inappropriately sullied the hardworking men and women of 
our industry, causes our industry great concern, as it does you 
as well. OMB recently issued guidance to establish greater 
oversight in reporting. The travel industry supports these 
efforts from OMB. But OMB also suggested an arbitrary 30 
percent cut in travel that neither we or Congress should 
support.
    Travel should be based on its merits, not on arbitrary 
mathematics. We welcome the opportunity to work with Congress 
and the administration to ensure that legitimate Federal 
conferences are not unnecessarily canceled, and that 
responsible Federal travel can still take place. We look 
forward to being your partner in creating American jobs and 
encouraging travel to and within this country.
    Thank you.
    Mrs. Bono Mack. Thank you, Mr. Freeman.
    [The prepared statement of Mr. Freeman follows:]
    [GRAPHIC] [TIFF OMITTED] 82267.021
    
    [GRAPHIC] [TIFF OMITTED] 82267.022
    
    [GRAPHIC] [TIFF OMITTED] 82267.023
    
    [GRAPHIC] [TIFF OMITTED] 82267.024
    
    [GRAPHIC] [TIFF OMITTED] 82267.025
    
    [GRAPHIC] [TIFF OMITTED] 82267.026
    
    [GRAPHIC] [TIFF OMITTED] 82267.027
    
    [GRAPHIC] [TIFF OMITTED] 82267.028
    
    Mrs. Bono Mack. Ms. Harrison, you are recognized for 5 
minutes.

             STATEMENT OF DEBORAH MARRIOTT HARRISON

    Ms. Harrison. Good morning, Chairman Bono Mack, Ranking 
Member Butterfield, and members of the subcommittee. I am 
Debbie Marriott Harrison, senior vice president for government 
affairs for Marriott International, and I am happy to be here 
today. I am proud to be able to report largely positive news 
from Marriott and the travel industry on this subject.
    I initially want to second the recommendations of my 
colleagues and friends from U.S. Travel Association and Brand 
USA that are here with me on the panel today, and thank them 
for being here. Marriott fully supports the work of these 
organizations.
    My company is celebrating its 85th anniversary this year. 
Marriott has humble roots that run deep here in Washington, DC. 
In 1927, my grandparents opened a nine-stool root beer stand on 
14th Street after moving to Washington from Utah. Thirty years 
later, they opened their first hotel near Reagan National 
Airport. My father stepped down in April as the CEO after 60 
years of service. He oversaw Marriott's evolution into one of 
the world's leading hospitality companies. We now have over 
3,700 hotels worldwide, with 18 brands in 73 different 
countries.
    Marriott is proud to be expanding and doing its part to put 
Americans back to work. We will have 330,000 associates around 
the globe by the end of this year, with 212,000 of those 
positions here in the United States. I am happy to report that 
we expect to hire some 50,000 people this year in this country. 
Many of those jobs will come from new hotel construction. For 
every five hotel rooms that we add to our system, we create 
roughly three jobs.
    One of Marriott's core values is to take care of our people 
and cross-train and promote from within. We offer opportunities 
to a broad swath of U.S. workers, particularly women, 
minorities, and immigrants, and provide meaningful career paths 
with incredible upward mobility. Over half of our general 
managers rose from the hourly ranks, and they have worked for 
us for an average of 24 years.
    Congress can help us create additional quality jobs by 
promoting the growth of travel and tourism. In 2011, we were 
pleased to see our business rebound, but there is still a lot 
more work to be done. We are trying to capitalize on the growth 
of middle classes in emerging markets like Brazil, India, and 
China.
    Marriott is ready to offer a warm welcome to guests from 
around the world. We have 3,100 domestic hotels and want the 
U.S. to capture the greatest possible share of the growing 
global travel market. Brand USA has begun the marketing 
campaign that will accomplish that, and I want to offer my 
thanks to you, Madam Chair, and to several of your colleagues 
on the subcommittee for your votes supporting passage of the 
Travel Promotion Act that led to the creation of Brand USA.
    Marriott has kept its promise to support this public-
private partnership. We have made a million-dollar cash 
investment in the organization, supported by a $2 million 
pledge of in-kind contributions. We see great potential in 
Brand USA's marketing work. We would appreciate your continued 
support of this important campaign.
    We also need to ensure that international travelers are 
able to enter the U.S. as easily and quickly as security 
allows. We were thrilled to see the administration unveil its 
National Travel and Tourism Strategy last week. The strategy 
contains a number of concrete proposals to achieve our 
international visitation goals.
    We still need Congress to bolster the administration's 
efforts. Marriott urges members of the subcommittee to support 
passage of reforms to our visa and entry process. Bills being 
championed by Congressmen Heck and Quigley in particular offer 
an easy means to increase the number of inbound international 
visitors and increase domestic economic activity. In fact, just 
yesterday the JOLT Act was introduced into the House that 
combines these two bills and is a companion bill to the House 
and the Senate. We would ask for your support for the JOLT Act.
    Finally, with respect to domestic travel, I wanted to echo 
some of the comments made by my colleague Geoff Freeman. As we 
all know, the GSA has been scrutinized for the over-the-top 
meeting that they had in Vegas in 2010. We understand and agree 
with the expectation of the American public that nonessential 
spending be cut from Federal agency travel budgets. Marriott 
urges Congress to take appropriate, responsible actions to 
accomplish that task.
    Inflammatory and reactionary rhetoric about wasteful 
Federal employee trips has prompted the cancellation of 
numerous legitimate agency meetings. This hurts our business. 
In the few weeks since multiple congressional committees 
excoriated the GSA, Marriott has seen approximately $4 million 
in cancellations of signed contracts with agencies from across 
the Federal spectrum. The number of cancellations is growing 
daily. Several examples of these cancellations are in my 
written testimony. The loss in government business may 
translate to lost jobs at Marriott hotels.
    Congress and the administration should pursue policies that 
preserve the ability of Federal agencies to hold appropriate 
meetings, while strengthening oversight to ensure that those 
events are conducted according to the rules. Marriott wants to 
continue to compete for the opportunity to provide Federal 
agencies with quality meeting spaces at a good value.
    I will conclude by saying that the services Marriott and 
its employees provide cannot be automated or shipped overseas. 
As a result, the growth of our company and industry represents 
a major opportunity to boost domestic employment. We hope 
Congress will see the value in seizing opportunities to boost 
travel and tourism in the United States as part of its broader 
agenda to put Americans back to work.
    Again, thank you for this opportunity to share Marriott's 
job-creation strategy with the subcommittee, and I look forward 
to answering your questions.
    Mrs. Bono Mack. Thank you, Ms. Harrison.
    [The prepared statement of Ms. Harrison follows:]
    [GRAPHIC] [TIFF OMITTED] 82267.029
    
    [GRAPHIC] [TIFF OMITTED] 82267.030
    
    [GRAPHIC] [TIFF OMITTED] 82267.031
    
    [GRAPHIC] [TIFF OMITTED] 82267.032
    
    [GRAPHIC] [TIFF OMITTED] 82267.033
    
    [GRAPHIC] [TIFF OMITTED] 82267.034
    
    [GRAPHIC] [TIFF OMITTED] 82267.035
    
    [GRAPHIC] [TIFF OMITTED] 82267.036
    
    Mrs. Bono Mack. And, Mr. White, welcome. And you are 
recognized for 5 minutes.

                    STATEMENT OF SCOTT WHITE

    Mr. White. Thank you. Chairman Bono Mack, Ranking Member 
Butterfield, and members of the subcommittee, thank you for the 
opportunity to testify today on our destination, Greater Palm 
Springs, the oasis in the California desert.
    It is an important industry for us. It is the leading 
industry for our destination, creating over 24,000 jobs, and 
producing over $2.1 billion in economic impact. And it was very 
nice to see the pride everybody has in their different 
destinations and how they talked so eloquently about the 
reasons why we should visit their destinations.
    Prior to Palm Springs, I spent time in both Phoenix and San 
Antonio and was able to see firsthand the different dichotomies 
that happen with international visitation into a destination, 
and I encourage all of you to work with your State offices or 
your CVBs to go on the road and take that passion and maybe 
attend Pow Wow, World Travel Market, ITB and see firsthand what 
we are competing with on a global basis. We were fortunate this 
past year to bring some mayors with us to Pow Wow, and I think 
it opened a lot of eyes. It certainly did help us for our 
destination to show that we are competing globally.
    And for our destination, it really does affect the small 
business owner. We have over 1,300 partners that work with us 
on a daily basis to really try to keep their employees 
gainfully employed and really dedicated to the passion that 
they have, which is this industry.
    We are a seasonal destination, and we really see fluxes 
between high season and low season. And our low season is the 
summertime. And summer for us really is an opportunity for 
international visitation. We see travelers from the U.K., from 
Germany, from all over the world that come, and they are very 
interested in our destination because of our national parks, 
Joshua Tree National Park, Mount San Jacinto State Park. And we 
encourage you to support and really work with the National Park 
System to make sure that those parks are fully funded and fully 
have the opportunity to create the enhancements they have and 
to grow, because that is a big driver for our destination and 
many destinations around the country.
    We are very fortunate to have a lot of growth in the past 
year. This first quarter we have seen growth in occupancy of 12 
percent. Occupancy is up 6 percent, RevPAR is up 12 percent, 
ADR is up, and we are starting to see our businesses continue 
to add jobs back into the destination.
    It is vital for us to have this relationship with Brand 
USA. We do not have the budget, or the resources, or the 
manpower to reach the emerging markets that we have identified. 
Our number one markets are Canada, United Kingdom, Germany, 
Australia, and France; however, we see that there is pent-up 
demand from China, India, South America, and many other 
destinations that are interested in our destination, but we 
cannot communicate to them nor have the resources to really get 
that message across about the destination.
    And I think we talked a lot today about jobs and the 
opportunities that it brings not only on the economic impact, 
but my experience has been when I travel abroad, and we have 
international visitors that come into our destinations, whether 
it is the Alamo, at the River Walk, or it is Phoenix going to 
the Grand Canyon, or for Palm Springs visiting Joshua Tree for 
their first time, it really breaks down the barriers that the 
people had about their perceptions of this destination. I can't 
tell you how many times international travelers would come to 
the destination with this perception that we are this country 
that is not welcoming to international visitors, and once they 
meet our partners, they explore our destination, they have an 
opportunity to meet with us, have a relationship, develop 
friends and create these acquaintances that really not only 
impacts us as a destination, but impacts our entire country.
    So we are very excited to be partnering with Brand USA. 
What it brings beyond marketing, I think, is an opportunity to 
reinvite people to our destination, reeducate them about the 
opportunities here. And we have found, and I have found through 
my experiences working at CVBs, both, again, in Phoenix, San 
Antonio, and in Palm Springs, is that when we have these 
opportunities to invite these individuals to our destination, 
they are not only coming as a consumer to spend money and shop 
and have a good time, but they are also business owners. They 
are also looking for opportunities to expand. They are also 
looking for opportunities to invest. And we are seeing more of 
that.
    So this is a great opportunity and tool for our country, 
our destination, and for us as a community to really work 
together to get the message across that we are a vibrant 
community, we are a welcoming community, and we have a lot to 
offer.
    So the services and support that Greater Palm Springs 
provides to our partners and community are vital to our 
destination's economy. We appreciate your time today and 
opportunity to share our viewpoint. We hope Congress recognizes 
the important of tourism in the United States and will support 
programs that will increase travel and ultimately put more 
Americans back to work.
    Thank you very much.
    Mrs. Bono Mack. Thank you, Mr. White.
    [The prepared statement of Mr. White follows:]
    [GRAPHIC] [TIFF OMITTED] 82267.037
    
    [GRAPHIC] [TIFF OMITTED] 82267.038
    
    [GRAPHIC] [TIFF OMITTED] 82267.039
    
    [GRAPHIC] [TIFF OMITTED] 82267.040
    
    Mrs. Bono Mack. Dr. Long, you are recognized for 5 minutes.

                  STATEMENT OF PATRICK T. LONG

    Mr. Long. Well, I do believe that the Travel Channel missed 
a great opportunity today not being here to film all of your 
respective comments about your States.
    Chairman Bono Mack, Ranking Member Butterfield, and members 
of the committee, I do appreciate sincerely the opportunity to 
make comments today.
    My name is Pat Long. I am the founding director of the 
Center for Sustainable Tourism, now located at East Carolina 
University. We are the only such research center in the 
country, and we now host the first and only interdisciplinary 
Masters of Science graduate degree, a master of science in 
sustainable tourism.
    I want to acknowledge and compliment all of those who have 
worked so hard to develop this national travel and tourism 
strategy, particularly John Bryson and Ken Salazar. And I am 
speaking today on the subject of sustainability in tourism, and 
that means balancing profitability with social and 
environmental responsibility. And I would also like to direct 
some comments to rural tourism as well.
    Let me begin my comments by stating that there is nothing 
more unsustainable than a bankrupt business; nor is there a 
tourism destination that I am aware of in the country that 
attracts visitors with polluted water and air, with a trash-
infested beach or mountain, that has poor stewardship of its 
environment or natural resources, has offensive or no 
hospitality, that destroys its community's sense of place, and 
that treats its employees and the residents of the region with 
disdain.
    The move to sustainability in our Nation's tourism industry 
recognizes that economic gain and job growth quickly go away if 
the tourism product is not protected. Thus, I offer you a 
working definition of sustainable tourism. It should contribute 
to a balanced and healthy economy by generating tourism jobs, 
revenues, and taxes, while protecting and enhancing the 
destination's social, historical, cultural, built, and natural 
resources for the enjoyment of both residents and visitors.
    Why do companies, why do destinations want sustainable 
tourism? Well, it decreases their costs, it improves their 
profits, creates greater brand recognition, enhances their 
reputation, increases market share, increases employee loyalty 
and cost savings, contributes to the overall well-being of the 
community, and improves relationships or meets regulations with 
government entities.
    Now, I understand that jobs are paramount in the thinking 
of many of us, but tourism will not be considered an acceptable 
rural economic development strategy if it does not serve the 
needs of local residents in both preserving and honoring what 
is held most dear, and that is their community and those 
elements and components that contribute to their sense of 
place.
    For just a moment I would like to have you think about the 
opportunity of hosting a substantial number of travelers from 
Europe, but these travelers want to come to your State because 
they would like to have a sustainable travel experience. Now, 
that means they want to have a green team, but no greenwashing. 
They want green accommodations built to the highest standards 
of green building. They want locally grown foods, organic 
foods, foods that are palatable to those that have intolerance 
to certain food types. They want tour operators who provide 
educational and responsible nature-based, cultural and historic 
experiences. And they want to travel through rural regions or 
destinations, places with character and places with a sense of 
place.
    Now, if that question was directed to Congressman 
Butterfield about North Carolina, I suspect he and his staff 
would note the Proximity Hotel. That is the Nation's first 
LEED-certified at the platinum level property in the United 
States. It has cut its energy use by 40 percent, its water use 
by 30 percent. Its elevator, when it descends, generates energy 
that feeds back into the system. It has over 100 solar panels 
on its rooftop.
    Their staff would talk to you about Mother Earth Brewery 
and the Chef and Farmer in Kinston. Chef and Farmer is a farm-
to-table food property, a high-end restaurant. Mother Earth 
Brewery is what it is, and it is one of the most attracting 
entities to the town of Kinston. We have the Roanoke River 
Partners. We have got Beaufort, which is the coolest small town 
in America, and currently working with the center to become the 
Nation's first fully carbon-neutral, sustainable rural 
community here in our country.
    In summary, I just want to say that I think sustainability 
should be an ethic and a value with all aspects of the tourism 
industry, and should, in fact, be reflected within our national 
tourism strategy. All of the Federal agencies represented on 
the interagency council have some type of sustainable 
initiatives and/or sustainability office.
    And finally, rural communities throughout the country, in 
addition to our gateway communities, should be encouraged to 
plan thoroughly to effectively use their history, culture, and 
natural resources to develop a tourism industry that is 
acceptable to their community.
    My thanks.
    Mrs. Bono Mack. Thank you, Dr. Long.
    [The prepared statement of Mr. Long follows:]
    [GRAPHIC] [TIFF OMITTED] 82267.041
    
    [GRAPHIC] [TIFF OMITTED] 82267.042
    
    [GRAPHIC] [TIFF OMITTED] 82267.043
    
    [GRAPHIC] [TIFF OMITTED] 82267.044
    
    [GRAPHIC] [TIFF OMITTED] 82267.045
    
    [GRAPHIC] [TIFF OMITTED] 82267.046
    
    [GRAPHIC] [TIFF OMITTED] 82267.047
    
    [GRAPHIC] [TIFF OMITTED] 82267.048
    
    [GRAPHIC] [TIFF OMITTED] 82267.049
    
    [GRAPHIC] [TIFF OMITTED] 82267.050
    
    [GRAPHIC] [TIFF OMITTED] 82267.051
    
    [GRAPHIC] [TIFF OMITTED] 82267.052
    
    Mrs. Bono Mack. And I will recognize myself for 5 minutes 
for questioning.
    And I just want to start by saying that it is clear that we 
all share a very strongly held belief that USA is the number-
one brand in the history of the world. But I would like to ask 
my first questions to Mr. White.
    Have you already had interaction with CTP or Brand USA as 
of yet? If yes, how would you describe that interaction? And if 
not, what is your understanding of how Brand USA will assist 
our tourism campaign back home?
    Mr. White. We have had interaction with Brand USA. We were 
fortunate to be involved on many different fronts. I think they 
have really reached out to try to gain insight from all 
different destinations.
    The research that they have conducted shows exactly what 
Dr. Long had talked about, is that the international traveler 
is looking to get beyond the gateway cities. The international 
traveler is very savvy. They know how to use the Internet. And 
the tour operators, they know how to find the niche markets. 
And I think it is an opportunity for us to not only expand upon 
the opportunity we have to reach those international 
destinations, but more importantly for us, it is the emerging 
destinations like a China, and India, or South America that we 
haven't been able to reach as we have in the past through the 
Internet that they have, the social media they are going to 
have, the ambassador program they are going to have. And so 
they are relying on our assets and the programs that we are 
creating to partner up with what they are trying to create, 
because they can give the message, but we have to deliver the 
product for that person to experience. And we want to make sure 
we are delivering the right product with our partners as well.
    Mrs. Bono Mack. Do you have any of the fears that a number 
of the Members have sort of alluded to about picking and 
choosing winners? I have asked the question of the Secretary 
also. Are you worried that they are going to be picking and 
choosing?
    Mr. White. No. I have been in this industry my entire life, 
and the one thing that I have noticed, and this happens at a 
regional level as well, we see that when we just launched our 
brand last week and we show a video and people start to become 
concerned, I wasn't in the video, am I going to be realized? 
And it happens as well.
    This organization is really trying to get the message out 
that this country, this destination is in a brand new day. It 
is going in a new lifecycle. There is a new environment here. 
And the individual is going to seek out, through the Internet, 
through the different avenues, looking for that information. If 
they are going to look for Palm Springs, it is incumbent upon 
me to make sure that my Internet, my information is connecting 
emotionally with that particular person.
    So I can't put the entire burden on Brand USA to say, you 
need to represent me as a destination. I just want you to, say, 
consider the United States before you consider Dubai, or Japan, 
or other destinations if you are coming from the U.K. Or 
Germany, so at least I can get my foot in the door and really 
start to compete for that business through a Joshua Tree or 
Mount San Jacinto.
    So we really want to emphasize that their role is that they 
cannot impact everybody specifically all the time 100 percent, 
it is physically impossible, but really want to change the 
perceptions that people have internationally about our 
destination to give me the opportunity then to sell my product 
that we have.
    Mrs. Bono Mack. To compete within----
    Mr. White. Exactly. Give me that first edge.
    Mrs. Bono Mack. That is terrific.
    Do you see any issues that fall within the Congress or the 
administration's domain that must be addressed to facilitate 
the attraction of and travel by international visitors? 
Anything else other than Brand USA that you would like for us 
to do now to help?
    Mr. White. Well, Geoff talked about this as well. 
Obviously, we need to be easy to do business with. It has to be 
easier to get a visa, it must be easier to get through customs, 
it must be easier to get through TSA. If they don't have an 
experience that is positive as they go through the process, and 
it is easy to get here, and it is not time-consuming and 
overburdened, they are going to other destinations that are 
more welcoming in that regard. So even though we may have a 
great campaign that says that we are a welcoming destination, 
we need to prove that as they come through the process at the 
airports, at the different gateways into our country.
    Mrs. Bono Mack. Thank you.
    Ms. Harrison, you testified that Marriott has already 
invested both funds and in-kind contributions with Brand USA. 
Can you describe your interaction with Brand USA and how you 
see that relationship evolving to be the most beneficial?
    Ms. Harrison. We work very closely with Brand USA and with 
U.S. Travel Association with Geoff Freeman also. And we are 
very, very happy that we have been able to contribute to the 
Brand USA.
    If you look at the statistics, just take China for example, 
by the year of 2030, 130 million Chinese are expected to travel 
to the United States. They spend on average $7,000 a trip. By 
partnering with Brand USA, hopefully we can get more Chinese 
visitors to come to the United States, to go to Vegas, to go to 
places like that instead of Macao and Australia where they are 
currently going to. And if we get just 10 percent of that 
number that is expected to come to the United States, we would 
have to build new airports, put new gates on, and we would 
create a number of new jobs. So it would be very exciting.
    So we are very excited about our work with Brand USA to get 
more international travelers to the United States.
    Mrs. Bono Mack. Thank you. That is awfully good to hear.
    Mr. Freeman, you recommended adding countries to the Visa 
Waiver Program. What are the impediments that you see to 
approving a country to the list?
    Mr. Freeman. The great aspect about the new Visa Waiver 
Program that is strongly supported by the Department of 
Homeland Security is that putting countries into this program 
actually makes America more secure. We saw that with the recent 
additions of Eastern European countries, as well as South Korea 
in recent years.
    Right now there is a barrier to further visa waiver 
expansion due to the creation or the implementation of what is 
considered a biometric exit system. We need to address that 
issue. There is legislation that exists to address that issue 
so that we can target countries like Brazil that meet our 
standards, that we can begin to have a conversation with them 
about increasing their security, their cooperation on lost and 
stolen passports and other issues to make America more 
competitive.
    As was mentioned earlier, as South Korea was entered into 
the program, we have seen upwards of a 40 percent increase in 
South Koreans coming to the United States. We can expect that 
and greater from Brazil and other countries if we put the right 
policies in place to get them into that program.
    Ms. Bono Mack. Thank you very much. My time has expired.
    Mr. Butterfield, you are recognized for 5 minutes.
    Mr. Butterfield. Let me thank the chairman and thank the 
five of you for your testimony today. I have been listening 
very carefully, and it has been very informative. I thank you 
so very much.
    I listened with great interest to the testimony of Ms. 
Harrison. Ms. Harrison, when I was a youngster--I live in North 
Carolina--twice a year my family would drive from North 
Carolina to New York City, and we would come up what was called 
the Shirley Highway. They didn't have 95 or 395, it was the 
Shirley Highway. In order to get to New York City, you had to 
go across the 14th Street Bridge on up to New York Avenue and 
make a right turn, and right on through Baltimore and up to New 
York City. It was a 12-hour trip. Today it is 8 hours. But we 
would always break our trip at your grandparents' hotel.
    Ms. Harrison. Thank you.
    Mr. Butterfield. It was $19 a night. I want you to remember 
that. It was $19 a night, and as a youngster I thought that was 
so much money to be spending for a hotel. But I have great 
memories of staying at that property. So welcome to the 
committee, and thank you for your contribution to this space.
    Ms. Harrison. You are welcome. And thank you for being such 
a great customer.
    Mr. Butterfield. Yes. That must have been in 1958, 1959, I 
suppose.
    Ms. Harrison. It opened in 1957. Hopefully, you also 
stopped at some Hot Shoppes along the way, along the turnpike.
    Mr. Butterfield. We did. I was born in 1947. So, yes, I was 
about 11 or 12 years old. I remember it so well.
    Let me direct my question to you, Mr. Freeman. Thank you 
very much for your testimony. I want to talk about highway 
tolls. I don't know if that is something that you pay much 
attention to, but it is a real hot issue in my State.
    My State department of transportation recently announced 
plans to toll Interstate 95. That highway is one of the most 
heavily traveled interstates in the entire country. And it just 
so happens that that interstate highway runs right through my 
congressional district, and so I am opposed to it. It would 
cost, we are told, $19 for a typical car to travel from the 
Virginia border to the South Carolina border through our State. 
I know this will impact my constituents in my district, and 
they have expressed frustration over this tolling plan, and so 
I have introduced a bill to try to deal with that.
    In addition to North Carolina's tolling plan, there have 
also been talks about tolling Interstate 95 in Virginia, our 
neighbor to the north. And I suppose that that toll could cost 
as much as $19 or $20. So when you put the $20 in Virginia 
together with the $20 in North Carolina, that is $40 for a 
tourist to travel from the New England part of the country 
perhaps down to Disney or to Myrtle Beach or Charleston, some 
of the Southern destinations. That is $40, not to mention the 
cost of a truck, a commercial vehicle, to make that trip. And 
then when they return back to their point of origin, that is 
another $40. That is $80 in tolls that is added to the family's 
budget, and I am fearful that this may discourage to some 
extent our tourism traffic.
    In your opinion, how does tolling impact tourism, if you 
have any words of wisdom on that?
    Mr. Freeman. Well, Mr. Butterfield, I think your comments 
are valid and well taken. When you look at travel in this 
country, about 85 percent of it takes place by car. So it is 
certainly an issue we need to address. We have a significant 
infrastructure challenge in this country. Certainly, our 
infrastructure is falling behind that of other nations around 
the world. Our own civil engineers give our roads a D-minus 
when it comes to infrastructure.
    We also lack a way to pay for the necessary reforms. So we 
would look forward to working with you and others in finding a 
long-term and sustainable funding model for improving the 
Nation's infrastructure. Tolls may or may not play a role in 
that space, and we have not done any research to date to see 
the effectiveness of--or the effect the tolls have on the 
decision to travel. But what we do know is we have to take our 
infrastructure weaknesses seriously and make some of the 
improvements that are necessary.
    Mr. Butterfield. And as State budgets begin to get 
strained, this is going to be a problem even more in the out 
years, you know, how to maintain interstate highways. Do you do 
it with tolling, or is there some alternative mechanism for 
doing it?
    Mr. Freeman. Absolutely.
    Mr. Butterfield. Dr. Long, you are from the eastern part of 
North Carolina. I am sure you have heard this debate. And I am 
right squarely in the middle of it. And certainly I understand 
the importance of planning for the future, but I also 
understand the strain that is being placed on tourists and 
local families. Can you help us with this?
    Mr. Long. I do not have the expertise to respond in a 
really credible way at the moment, but it is a topic that is on 
our radar screen and that we are collecting information as we 
speak to better understand the various aspects of that issue.
    Mr. Butterfield. And you can certainly appreciate the 
interests that have to be balanced in making this decision.
    Mr. Long. Yes, we do.
    Mr. Butterfield. Again, Dr. Long, I was very interested to 
hear about how various businesses in the travel and tourism 
sector have taken to an ethic of sustainable tourism, not just 
because it is the right thing to do for the environment, but 
also because certain steps can save a great deal of money even 
in the short to medium term.
    Is my time up? All right. I yield back.
    Mr. Harper [presiding]. The gentleman yields back.
    The chair will now recognize the gentleman from Texas Mr. 
Olson for 5 minutes.
    Mr. Olson. I thank the chair.
    And welcome to the witnesses. Thank you for your time and 
your expertise today.
    And it is unfortunate that my colleague from Kansas had to 
leave a little bit early, but I can assure you when I get to 
see him on the floor today, I am going to tell him that while I 
was shamelessly promoting the Lone Star State by the slogan 
that Texas is like another country, I was indirectly promoting 
Kansas, because for about 9 years, the southwestern part of 
Kansas was part of the Republic of Texas, part of this country 
that was Texas. So if it is good for Texas, it is good for 
Kansas.
    My first question for you, Mr. Evans: You know, you 
mentioned in your opening statement that our share of 
international arrivals declined by 37 percent, from 17 percent 
of the world market to 12.4 percent today. If we just 
maintained our market share over that period you mentioned 
467,000 American jobs would have been created.
    We want to ensure that everyone, rural and urban, benefits 
from Brand USA's marketing efforts, but we also need to make 
sure it operates beyond controversy, and that we target true 
foreign destinations that foreign visitors want to go to. I 
mentioned in my comments earlier that Buffalo Gap, Texas, 
Perini's Steakhouse there, that is a great destination. They 
will even give you a cowboy hat. But very few people, I think, 
from overseas want to go to Perini's in Buffalo Gap, Texas.
    So what is the policy of Brand USA regarding the promotion 
of a particular location to make sure that we truly target 
where foreign tourists will visit?
    Mr. Evans. So I am not sure it is a policy, but our work 
pattern is that we will work with anyone and everyone, and have 
interest in working with all States. In fact, we have a program 
under development right now with the State of Texas through 
Julie Chase, who is your head of tourism, to make sure that we 
are comarketing together to help her to approach the issues 
that she is dealing with in trying to increase international 
tourism by helping her expand her investments, by adding her 
into some of the investments that we will be making with our 
brand.
    So as far as, you know, individual towns are concerned, 
that is probably a little bit more difficult issue because they 
really don't have the budgets to partner. So we would expect 
that she--they would look to Julie and the State of Texas to 
make sure they are partnering with Brand USA to extend their 
marketing reach as far as possible.
    Mr. Olson. So the States become the liaison between you and 
the people back home.
    Mr. Evans. The States and many CVBs.
    Mr. Olson. Outstanding. Great. Thank you.
    A question for you, Ms. Harrison. First of all, I want to 
thank you, because the Marriott hotel in the town center in 
Sugar Land, Texas, where I live, my home, is doing its share to 
promote international tourism. And let me explain that.
    A recent study found that the Greater Houston area was the 
most diverse, ethnically diverse, large city in America. Number 
one. And Fort Bend County, where I live, was the most diverse 
part of the Greater Houston area. In fact, this past Saturday I 
was at a wedding there at the Marriott there in town center. 
And I was not at the wedding, I was at another event, but there 
was a wedding going on, and these were Indian Americans. And 
many of those people had to get passports and had to come here, 
and they found a home at your hotel for a couple of days. And I 
thank you for that. One thing you guys couldn't accommodate was 
the bride could not ride in on the elephant. You guys had no 
room for the elephant there. You are doing your share.
    I just want to follow up on the comments that the chairman 
had when she was here. But how are you using Brand USA to 
coordinate with the Federal office that is involved in this 
process that the first panelists mentioned? The Federal 
Government, we have got these offices, boards, all these groups 
out there. How are you communicating with them with Brand USA 
to make sure that the left hand knows what the right hand is 
doing, that you are not duplicating your efforts at Marriott? 
Because you guys are doing great things.
    Ms. Harrison. We have a lot of associates in our corporate 
headquarters, and we have several of them that work very 
closely with Brand USA in the marketing department. And part of 
our in-kind contributions are coming from working with them on 
the marketing and putting things up on our Web sites. And we 
work in concert with them to help promote the United States as 
a destination through our channels. We have huge distribution 
channels with our reservation channels, and many people go on 
line every year. And so we work with them to market Brand USA. 
So we have several people in our corporate headquarters that 
work very closely with them. And we work closely with them on 
the policy pieces of it to try and get our visas streamlined 
and the wait times down and so that they can market that.
    Part of what Brand USA does that we find that is so 
valuable is that they also educate the traveling public as to 
what is expected when they go to the consulates. You know, the 
fingerprints have to be taken, those kinds of things. So they 
market, but they also educate, and we appreciate that.
    Mr. Olson. Thank you. That sounds like a true quasi-public-
private partnership that works very well.
    One final question for you, Mr. Freeman. I am running out 
of time. But how does the waiting time for the U.S. entry 
screening process compare to other similar nations? How are we 
doing? It sounds like we are not doing very well.
    Mr. Freeman. When it comes to visa wait times, America is 
at a huge competitive disadvantage. Brazilians are not required 
to have a visa to go to Western Europe. That puts America--when 
you consider that the U.S. often had a wait time of over 90 
days, 100 days at times, it put America at a huge competitive 
disadvantage.
    And we heard talk before of perhaps Americans losing 
visitors because of competition. Another way of saying that is 
America is losing visitors because of its lack of 
competitiveness, because we are not putting the policies and 
the resources in place to put ourselves on a par with our 
competitors around the world.
    The State Department has made great strides. What we all 
need to do is help them to make these things sustainable with 
some of the policies we discussed earlier.
    Mr. Olson. Thank you. I am out of time. I yield back.
    Mr. Harper. The chair recognizes the gentleman from Texas 
Mr. Gonzalez for 5 minutes.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    Real quick observations, then I will ask a question. You 
heard me question the Under Secretary or Assistant Secretary 
about coordinating their effort to the different agencies and 
departments. You really need to be keeping us informed as to 
where you don't see that coordination taking place.
    The reason for it, by the very nature of the beast, all of 
these different departments and agencies have different 
priorities. You know, DHS is going to be obviously different 
even from State Department, and State Department will be 
different from Department of Commerce. We run into this all of 
the time, and it is a legitimate factor that we need to take 
into consideration.
    I heard you about government conferences, agencies and 
departments. You are going to see more of that. We are really 
cutting spending, both sides of the aisle. I mean, it is just 
going to be out there. I think you need to prepare for that. 
And I see organizations and associations, bar Associations and 
such, doing the same thing because of the teleconferencing that 
is out there, and it is cheaper. It has tremendous impact.
    Scott White will tell you; I am from San Antonio, and I 
don't tell have to tell you what the tourism means to my city. 
I am not happy about it, yet I don't know how we are going to 
be able to resolve that. When we talk about austerity measures 
and such, you need to be explaining that to your Members of 
Congress, that there are real economic consequences to you, 
your business and to jobs throughout America.
    You know, Mr. Long, you pointed something out. Two weeks 
from today--at least I hope that I will be--I will be in 
northern California. The first thing I am checking are all the 
State parks, hours of operation, maintenance and everything 
else. It is not what it used to be. You are not real sure what 
is open anymore. And I know California may be unique in some 
ways, but I have been in New Mexico, too. It is not the same, 
and that is a very, very real concern to me.
    The other thing, of course, is infrastructure. The truth is 
we know what it would take, we are just not willing to pay for 
it. I have said this often, and I know President Eisenhower set 
out to build an interstate highway system that has served us 
well to this very day. And people tell me that back then he was 
able to sell it on the proposition it was a national security 
issue. I don't know if that is true or not, but I do know this, 
that he raised substantially the tax on gasoline.
    Now, that is what it really takes to do anything in this 
country regarding our bridges, and our roads and 
infrastructure. It is not going to happen. This Congress would 
not have embarked on an interstate highway system. I mean, that 
is just a fact. I don't know if anybody here is going to 
dispute that or not.
    With that, let me ask you this, Mr. Evans: How did you 
people get information before they travel? I think we all know 
the answer, but you tell me.
    Mr. Evans. I think a variety of ways, but I think in 
today's marketplace--I will give you several. One is our Web 
site, discoveramerica.com. All of our States have Web sites 
that people will use to gain information. Travel agents around 
the world, wholesalers around the world provide that type of 
information, as well as social media has become a great 
resource for people as they begin to plan trips.
    We have an application on our Web site called ``Suitcase'' 
that people can click into and investigate States and cities 
and begin to put together their trip through, you know, not 
only checking the cost of flying, but checking the cost and the 
mileage of driving, so it helps them plan trips.
    So I think today with the social media, with our Web site, 
and with the network of travel industry, people have more 
resources than ever to investigate and to plan their trips.
    Mr. Gonzalez. So in a word, it is the Internet. This 
committee has jurisdiction over telecommunications. We probably 
have a greater intimate knowledge of how it works from its 
infrastructure to every moving part. You also need to be 
telling us how it serves you, problems that you have. And we 
know the world has changed, and how do you get your message out 
there? Search engine placement is placement, advertising is 
advertising, and you have a bunch of middle people now. 
Basically I could go to a Marriott Web site, but the truth is I 
have got all these brokers out there, and we need to understand 
that, and where you think we can be of assistance, you need to 
be telling us.
    I only have a few seconds, so your answer has to be very 
precise, concise. What is the one thing--if you asked Congress 
to do today and we could grant it, what is the one thing to 
help you? In just 5 seconds.
    Mr. Evans. I would keep focusing on visa waiver issues, and 
improving that process, and do everything that people can to 
support Brand USA in our messaging around the world.
    Mr. Gonzalez. Mr. Freeman.
    Mr. Freeman. Listen to Jim's advice on the visa waiver 
program.
    Mr. Gonzalez. Ms. Harrison?
    Ms. Harrison. Listen to Jim also.
    Mr. White. Agree. Visa waiver program.
    Mr. Long. I agree and add a strong element of research to 
that as well.
    Mr. Gonzalez. Thanks very much for your testimony.
    I yield back, Mr. Chairman.
    Mr. Harper. The gentleman yields back. The chair will now 
recognize himself for questioning for 5 minutes.
    And we thank each of you for being here, and I can assure 
you despite my friend's comments about the interstate highway, 
it is clear that highways, roads, bridges have always had 
strong bipartisan support. It is imperative that we do that.
    But I would start with this, if I could, and ask Mr. 
Freeman, how much do gasoline and aviation and fuel prices 
affect the type of travel that we are talking about today?
    Mr. Freeman. There is no doubt as travel becomes more 
expensive, it has a consequence on how it is used. At the same 
time, however, we have seen that travelers are awfully 
resilient. We saw that as gas prices rose in 2007. We saw it 
again earlier this year as gas prices rose.
    When you look at that increase of even $1 a gallon, when 
you look at it over the cost of a trip, you may be adding $20 
to the cost of your trip. Certainly when you look at fuel 
prices, you have some serious issues there, and the fuel prices 
have led the airlines to put in place many new ancillary fees 
that drive certain costs of travel now. Those are certainly a 
concern for many travelers.
    We are particularly concerned about the issue of carry-on 
bag fees and the effect that that has, and it all starts with 
those fuel prices, the effect that has on the TSA experience. 
According to TSA, you have seen a $260 million cost to 
taxpayers because of the increase of 50 percent of bags coming 
through.
    Mr. Harper. When it comes to an individual family that 
might be traveling versus a group tour, does that gas at the 
pump have a bigger impact for that group tour?
    Mr. Freeman. It certainly could. The data tends to show 
that travelers are awfully resilient, but that is not an excuse 
for not finding a long-term policy, and we certainly need to 
get that figured out.
    Mr. Harper. Certainly. And if there is a way to get gas 
prices back down, that is going to help towards--that is a 
given.
    Mr. Freeman. It will certainly help.
    Mr. Harper. On the international travelers, when you are 
giving that response, you are referring to domestic as well as 
international travelers.
    Mr. Freeman. I am largely referring to domestic. The one 
thing we have seen with international travelers, even when the 
currency in the United States--when the dollar was weak, we 
weren't seeing the number of visitors that we needed. The visa 
policies, the entry policies, the promotion are the key things 
with international travelers.
    Mr. Harper. Thank you, Mr. Freeman.
    Mr. Evans, have you identified any areas where the 
administration or Congress can assist in growing the number of 
international visitors by revisiting any particular regulations 
or laws other than the waiver, visa waiver?
    Mr. Evans. I am not sure about regulations or laws, but we 
are working right now with the State Department and helping 
them to--excuse me, them helping us to launch our promotions in 
country. Right now we are looking at some test operations in 
Canada and in France and Germany that we hope to launch before 
the summer is out where we would do something to help improve 
the experience of waiting in the waiting area for visa 
processing, as well as we launch, because our ambassadors have 
so many contacts in country, that they could help us meet many 
of the leaders in the community. And so we are talking about 
some launch parties in those test countries also.
    Mr. Harper. And I am just curious. You stated that you 
estimate current in-kind contributions around $20 million, I 
believe.
    Mr. Evans. You know, it is a hard number to just hold to. I 
think in our pipeline right now, we are probably $31 million. 
But the process of valuing that at fair market brings it down 
somewhere near $20 million.
    Mr. Harper. Well, can you discuss what those in-kind 
contributions entail?
    Mr. Evans. It is a variety of things. It is everything from 
an airline seat or a hotel room, where we are given access to 
those assets to build travel packages around or to use 
internally for our own personal travel. We have a team of 
people going out to Marriott this Friday--I think it is our 
third meeting--to begin talking about how we can create in-kind 
marketing opportunities. That ranges from everything from 
putting our logo on your advertising, to your Web site, to 
creating a 50/50 cooperative marketing opportunity.
    Mr. Harper. Got you.
    All right. At this time I will recognize the gentleman from 
Illinois Mr. Kinzinger for questioning for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    I have to echo your comments you made about the interstate 
system. This is a majority that has been very supportive of 
infrastructure, I think it is important to say.
    But I thank you for the time, and I am glad we are all on 
the same page when it comes to the importance of increasing our 
travel and tourism in the United States, obviously a very 
important industry.
    Increased travel achieves significant foreign policy 
objectives as well by introducing international visitors to our 
best goodwill ambassadors, which is our citizens. In fact, if 
you go out on the Mall here in Washington, DC, you are shown 
many people from around the world that come and get their 
picture taken in front of a great symbol of what American 
freedom is, either the Capitol or the White House, or any of 
the other landmarks.
    I am a cosponsor of the Welcoming Business Travelers and 
Tourists to America Act, which will remove the self-imposed 
barriers in the business and tourist visa application process 
that is presently discouraging travel to United States, as we 
have talked about. I am working to ensure that hopefully we 
will see action in the House on this legislation before the end 
of the year.
    For a moment, though, I want to switch gears and turn our 
attention to U.S. citizens traveling abroad. I have been 
concerned about the health and safety of U.S. travelers abroad 
and ensuring that our consumers have the most important safety 
and health information when booking international travel on 
line. I am a lead sponsor of the International Travelers Bill 
of Rights, which is a bill that would require online travel 
operators to display certain health and safety services 
available at hotels, and it requires the State Department to 
update the record of overseas deaths of U.S. citizens from 
unnatural causes on a monthly basis, including locality.
    It is so much easier for consumers to book foreign travel 
on line, and they may or may not be aware of the safety and 
health problems at a particular hotel or region that is present 
without this information.
    So my first question is to Ms. Harrison and Mr. Freeman. Do 
you believe that consumers have enough information when booking 
foreign travel at a hotel that is not U.S. owned or U.S. Based? 

    Ms. Harrison. I am not sure that I have the expertise to 
speak on that, but this has come up before, and our feeling is 
that there--if you go on line and you book a hotel room at one 
of our hotels overseas, you are also able to contact that hotel 
and ask those pertinent questions that may concern you and may 
worry you.
    As far as having lifeguards at every pool and those kinds 
of issues, that is sort of done by a regional basis, a hotel-
by-hotel basis. I think that the information is accessible on 
line, and customers are certainly welcome to call our general 
manager.
    Mr. Kinzinger. And I don't think, you know, necessarily 
American-based hotels even overseas are as big of a problem as 
what we see is hotels that are owned and operated overseas. I 
had a specific case of somebody in my district who lost a son, 
and this is information that would have been probably very 
handy to them.
    Mr. Freeman, do you have any input on this at all? 
    Mr. Freeman. We are an organization that is entirely 
focused on travel, too, within the United States. I think your 
last comment is important, though, because the access to 
information is what will be difficult for many, perhaps those 
tour operators and others, booking that travel overseas. If 
they don't have access to the information, it is going to 
become very difficult to share.
    Mr. Kinzinger. I don't know if anybody else on the panel 
had any thoughts or anything.
    And do you believe the current State Department--probably 
along the same lines, probably give me about the same answer--
but do you believe the current State Department travel warnings 
and overseas death notifications are distributed in a manner 
that is useful in informing travelers of any unforeseen 
dangers? Anybody? Same basic answer on that?
    OK. I think it is an important--and I understand where 
your-all areas of expertise are, but I think it is something 
that obviously is very important when we talk about U.S. 
citizens traveling abroad that they have that information 
available to them.
    So with that, thank you for your patience and coming in 
today, and I yield back.
    Mr. Harper. The gentleman yields back.
    I want to thank each of you for being here today. You have 
added some valuable insight and have been a great resource for 
the committee. And we wish each of you well. And as we travel 
across the country, we hope we will see you again.
    I remind Members that they have 10 business days to submit 
questions for the record, and I ask the witnesses to please 
respond promptly to any questions they may receive.
    This hearing is now adjourned.
    [Whereupon, at 12:38 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC] [TIFF OMITTED] 82267.053
    
    [GRAPHIC] [TIFF OMITTED] 82267.054
    
    [GRAPHIC] [TIFF OMITTED] 82267.055
    
    [GRAPHIC] [TIFF OMITTED] 82267.056
    
    [GRAPHIC] [TIFF OMITTED] 82267.057
    
    [GRAPHIC] [TIFF OMITTED] 82267.058
    
    [GRAPHIC] [TIFF OMITTED] 82267.059
    
    [GRAPHIC] [TIFF OMITTED] 82267.060
    
    [GRAPHIC] [TIFF OMITTED] 82267.061
    
    [GRAPHIC] [TIFF OMITTED] 82267.062
    
    [GRAPHIC] [TIFF OMITTED] 82267.063
    
    [GRAPHIC] [TIFF OMITTED] 82267.064
    
    [GRAPHIC] [TIFF OMITTED] 82267.065
    
    [GRAPHIC] [TIFF OMITTED] 82267.066
    
    [GRAPHIC] [TIFF OMITTED] 82267.067
    
    [GRAPHIC] [TIFF OMITTED] 82267.068
    
    [GRAPHIC] [TIFF OMITTED] 82267.069
    
    [GRAPHIC] [TIFF OMITTED] 82267.070
    
    [GRAPHIC] [TIFF OMITTED] 82267.071
    
    [GRAPHIC] [TIFF OMITTED] 82267.072
    
    [GRAPHIC] [TIFF OMITTED] 82267.073
    
    [GRAPHIC] [TIFF OMITTED] 82267.074
    
    [GRAPHIC] [TIFF OMITTED] 82267.075
    
    [GRAPHIC] [TIFF OMITTED] 82267.076
    
    [GRAPHIC] [TIFF OMITTED] 82267.077
    

                                 <all>

</pre></body></html>
